<html>
<title> - THE BENEFITS OF INTERCITY PASSENGER RAIL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                THE BENEFITS OF INTERCITY PASSENGER RAIL 

=======================================================================

                                (110-54)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 26, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                     U.S. GOVERNMENT PRINTING OFFICE

36-685 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)



     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
JULIA CARSON, Indiana                WAYNE T. GILCHREST, Maryland
GRACE F. NAPOLITANO, California      STEVEN C. LaTOURETTE, Ohio
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               GARY G. MILLER, California
BRUCE L. BRALEY, Iowa                HENRY E. BROWN, Jr., South 
TIMOTHY J. WALZ, Minnesota           Carolina
NICK J. RAHALL II, West Virginia     TIMOTHY V. JOHNSON, Illinois
PETER A. DeFAZIO, Oregon             TODD RUSSELL PLATTS, Pennsylvania
JERRY F. COSTELLO, Illinois          SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JIM GERLACH, Pennsylvania
ELIJAH E. CUMMINGS, Maryland         MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            LYNN A. WESTMORELND, Georgia
DANIEL LIPINSKI, Illinois            JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                 (iii)






































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Blow, Larry, Senior Associate, United States Maglev Coalition....    41
Bohlinger, Lt. Governor John, State of Montana...................     4
Brubaker, Kevin, Project Manager, Midwest High Speed Rail Network 
  Project, Environmental Law and Policy Center...................    41
Busalacchi, Frank J., Secretary, Wisconsin Department of 
  Transportation.................................................    27
Capon, Ross, Executive Director, National Association of Railroad 
  Passengers.....................................................    41
Glynn, Hon. Astrid C., Commissioner, New York Department of 
  Transportation.................................................    27
Jackman, Hon. Robert N., Indiana State Senator and Chair, Midwest 
  Interstate Passenger Rail Commission...........................    27
Kempton, Will, Director, California Department of Transportation.    27
Nekritz, Hon. Elaine, State Representative of Illinois...........     4
Parcells, Harriet, Executive Director, American Passenger Rail 
  Coalition......................................................    41
Peppard, Colin, Transportation Policy Coordinator, Friends of the 
  Earth..........................................................    41
Schweiker, Mark, President and CEO, Greater Philadelphia Chamber 
  of Commerce and Former Governor of Pennsylvania................     4
Williams, Hon. Velma H., Commissioner, City of Sanford, Florida..     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    59
Lampson, Hon. Nick, of Texas.....................................    60
Oberstar, Hon. James L., of Minnesota............................    61
Rahall, II, Hon. Nick J., of West Virginia.......................    65

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Blow, Laurence E.................................................    66
Bohlinger, Lt. Governor John.....................................    70
Brubaker, Kevin..................................................    74
Busalacchi, Frank J..............................................    80
Capon, Ross B....................................................    89
Glynn, Astrid C..................................................    96
Jackman, Hon. Robert N...........................................   110
Kempton, Will....................................................   116
Nekritz, Hon. Elaine.............................................   129
Parcells, Harriet................................................   132
Peppard, Colin F.................................................   142
Schweiker, Gov. Mark.............................................   149
Williams, Hon. Velma H...........................................   154

                       SUBMISSIONS FOR THE RECORD

Glynn, Hon. Astrid C., Commissioner, New York Department of 
  Transportation, letter from Anne Stubbs, on behalf of the 
  Coalition of Northeastern Governors............................   107

                        ADDITIONS TO THE RECORD

Placer County Transportation Planning Agency, Gina Garbolino, 
  Chair, Board of Directors, written statement...................   165

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  BENEFITS OF INTERCITY PASSENGER RAIL

                              ----------                              


                         Tuesday, June 26, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
       Subcommittee on Railroads, Pipelines, and Hazardous 
                                                 Materials,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:06 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Corrine Brown 
[Chairwoman of the Subcommittee] Presiding.
    Ms. Brown of Florida. Will the Subcommittee for Railroads, 
Pipelines and Hazardous Materials come to order?
    The Subcommittee is meeting today to hear testimony on the 
benefits of intercity passenger rail.
    More and more States and localities across America are 
turning to passenger rail to meet the transportation needs of 
their citizens. With gridlocked highways and skyrocketing gas 
prices, it is easy to see why passenger rail is becoming so 
popular.
    Passenger rail's ability to reduce congestion is well-
known. For example, one full passenger train can take 250 to 
350 cars off the road, and passenger rail can compete as a 
viable alternative to airplanes under 500 miles, and some of 
our visitors can attest to that.
    Passenger rail also consumes less energy than automobiles 
and commercial airlines, but before we can fully realize those 
benefits, we need to ensure passenger rail is a priority in the 
United States. We were once the premier country in passenger 
rail service, and now we are dead last behind every other 
industrialized country in the world.
    We need to start with reauthorizing Amtrak. Amtrak provides 
a majority of intercity passenger rail services in the United 
States. Amtrak's authorization started over 4 years ago. Yet it 
has continued to make impressive gains in attracting new 
ownership and increasing its annual revenue.
    Amtrak also encourages economic development in communities 
it serves. One of our witnesses today is my dear friend Ms. 
Williams, who represents the City of Sanford, Florida. I want 
you to know she is supposed to have been here yesterday at 1 
o'clock, and she didn't get on the plane until I think about 8 
o'clock last night. So remember when we had the hearing from 
the different countries, one train indicated that their record 
was only 6 seconds late, period, 6 seconds.
    So the Amtrak station in Sanford is important to the city's 
prosperity and its residents. Amtrak plans to redevelop and 
expand the Sanford station, which in turn will provide economic 
benefits to the local area and residents as well as to the 
Amtrak passengers.
    I welcome Commissioner Williams and all of our 
distinguished guests, and we really have a wonderful panel of 
distinguished guests. I look forward to hearing from today's 
panelists with their experience with intercity passenger rail 
and how we can make the system better.
    I will yield to Mr. Shuster, and I ask by unanimous consent 
you have 14 days to revise and extend the remarks and to permit 
the submission of additional statements and material by 
witnesses. Without objection, so ordered.
    Also. Due to the length of the hearing and the scheduled 
markup at 2 o'clock, I ask that Members either submit their 
opening statements for the record or make them during the 
question and answer period.
    I yield to Mr. Shuster for his opening remarks.
    Mr. Shuster. I thank you for holding this hearing today. I 
appreciate you holding this hearing today. As you know, those 
of us on the Committee know the importance of intercity rail, 
especially the Amtrak in this country and the importance to the 
future.
    I would like to take this opportunity to welcome all 
panelists. I appreciate you taking the time being here and 
discussing this issue today and helping to shed some light on 
it.
    I especially want to welcome former Governor of 
Pennsylvania, Mark Schweiker, for being here today. Many of you 
may remember Governor Schweiker's great leadership in Somerset, 
Pennsylvania. He has now taken his leadership to the 
Philadelphia Chamber of Commerce. It is not just Philadelphia, 
it is a regional operation that goes from Trenton, New Jersey, 
down to Wilmington, Delaware. It is a great example of 
regionalism in action, and we appreciate you being here today.
    I know, Governor, you have to leave at about 11:30. You 
have another great program you have put together in 
Philadelphia. I wrote the name down here, and I can't even read 
my writing. Is it Working Solutions?
    Mr. Bohlinger. Yes, it is.
    Mr. Shuster. Working Solutions. The governor told me it 
will provide a thousand paid internships in that region for 
kids, young people to go to work this summer and to stay in 
school and away from some of the temptations that are out 
there. So we commend you for that and really appreciate you 
taking the time to be here. We'll be sure that you get back to 
make that big announcement today.
    It is clear that passenger rail done right can be a major 
benefit to our economy. Also, our existing Amtrak system needs 
serious help. In the current fiscal year, through April, only 
42 percent of Amtrak's intercity trains managed to arrive on 
time. The California Zephyr has never arrived on time, while 
the Capital Limited arrived on schedule only about 16 percent 
of the time.
    The reason for this is simple. Amtrak runs its trains on 
freight rail tracks, which are becoming just as congested as 
our highways. If Amtrak trains are running late, in many cases 
so are freight trains. We need to find a way to reduce freight 
congestion and permit the efficient operation of Amtrak routes.
    Today, we will hear from a variety of organizations we need 
a new infrastructure program, and public-private cooperation is 
essential to doing this. I think that there are some in this 
body in Congress that believe that Amtrak can be a profit-
making entity. I, for one, my goal would be for Amtrak to some 
day be a break-even operation. I think it is very, very 
difficult for a passenger rail system. If you look around the 
world, to get it to break even is a difficult thing. That is 
something we need to look at.
    In Pennsylvania, though, Amtrak finished rehabbing the 
Keystone Corridor, which is running at rates of 110 miles per 
hour. This was done under a 50/50 cost share arrangement 
between the State of Pennsylvania and Amtrak. Ridership and 
performance are way up, and it serves as a model for other 
corridors around the country.
    We also have to think about replacing antiquated intercity 
trains. One idea would be to develop a national railway 
equipment pool which will allow States to buy new DMU trains. 
DMUs consume far less fuel, generate fewer pollutants than 
regular trains; and I believe they are much more flexible for 
runs that run across central Pennsylvania, which is essential 
to my part of the country. I think this technology is ideal for 
expanding rail service in Pennsylvania and other States.
    I am glad to see so many organizations here to help guide 
us through this process. Again, Governor Schweiker, thanks for 
being here today.
    Madame Chairwoman, thank you for holding this hearing; and 
I yield back my time.
    Ms. Brown of Florida. Thank you.
    I would like to welcome our distinguished witnesses here 
this morning.
    Our first witness is Lieutenant Governor John Bohlinger 
from the State of Montana, welcome, welcome.
    Our second witness--and you ably introduced him--is the 
former Governor Mark Schweiker, who is the President and CEO of 
the Greater Philadelphia Chamber of Commerce and the former 
Governor of Pennsylvania. Welcome.
    Our third witness is Illinois State Representative Elaine 
Nekritz. She is Chair of the Rail Committee in the Illinois 
Statehouse, which is newly formed. I can see already she has a 
lot to talk about, including her plane was late this morning.
    And our final witness for the panel, my dear friend, 
Commissioner Velma Williams. She represents the City of 
Sanford, which Ranking Member Mica and I have the privilege of 
serving in Congress.
    Let me remind the witnesses that they are under Committee 
rules. They will submit their oral statements, but their entire 
statement will appear in the record. We will also allow the 
entire panel to testify before questioning the witness.
    We are very pleased to have you here this morning.

  TESTIMONY OF LT. GOVERNOR JOHN BOHLINGER, STATE OF MONTANA; 
MARK SCHWEIKER, PRESIDENT AND CEO, GREATER PHILADELPHIA CHAMBER 
  OF COMMERCE AND FORMER GOVERNOR OF PENNSYLVANIA; HONORABLE 
ELAINE NEKRITZ, STATE REPRESENTATIVE OF ILLINOIS; AND HONORABLE 
   VELMA H. WILLIAMS, COMMISSIONER, CITY OF SANFORD, FLORIDA

    Ms. Brown of Florida. We will begin with Lieutenant 
Governor. Thank you.
    Mr. Bohlinger. Good morning, Madame Chair and Subcommittee 
Members. My name is John Bohlinger. I am Montana's Lieutenant 
Governor. I greatly appreciate the opportunity to appear before 
you today to discuss this critical issue of Amtrak's intercity 
service to Montana and other rural States.
    I'm here to speak in support of Amtrak's long-distance 
intercity service and the need for continued Federal support 
for Amtrak in general and the need for long-distance routes 
specifically.
    Mr. Shuster. Can you pull the mike closer?
    Mr. Bohlinger. Surely. How is that?
    Many people assume that long-distance travelers on Amtrak 
are primarily vacationers or leisure travelers. In reality, the 
long-distance routes such as the Empire Builder provide 
essential transportation to residents in large areas of the 
United States, including Montana.
    The Empire Builder has been a presence in Montana for some 
78 years. The nearly 700-mile segment of the Empire Builder 
that crosses Montana's Hi-Line accounts for almost one-third of 
the total route. To put this in perspective, the Empire Builder 
crosses Montana at a greater distance than it would be to 
travel from the District of Columbia to Atlanta, Georgia.
    The Empire Builder's annual ridership is about 500,000. 
This is not large in terms of a national perspective. However, 
with our rural highway and transit systems, traffic volumes do 
not always tell the whole story.
    When you come to understand the importance of--national 
importance of long-distance passenger service, to understand 
this I think it is important for you to see or have some 
understanding of Montana's transportation system.
    In northern Montana, the area served by the Empire Builder, 
we have one north-south interstate highway system; and we have 
a two-lane highway system that goes east and west. There are no 
intercity buses services. There is limited access to air 
transportation. During the winter months, when storms can often 
close highways, the Empire Builder provides a lifeline of 
transportation to residences and businesses that have no other 
options.
    The Empire Builder draws riders from many other areas of 
Montana. People who live in Billings, Bozeman, Butte and 
Missoula will often drive hundreds of miles to take the train.
    Now if you were to visit the Montana train depot before the 
train arrives, it would be interesting for you to see just who 
is queuing up for that ride. We would see the following: We 
would see Montana residents who would be traveling to major 
hospitals in Seattle or to the Mayo Clinic in Minnesota for 
medical treatments. You would find military personnel at the 
Great Falls Malmstrom Air Force Base who are traveling. You 
would find Native Americans who are going to work or visiting 
families and friends out of State. You would find students who 
would be traveling to school outside of the State of Montana. 
You would see Homeland Security personnel that guard our border 
between the United States and Canada, our neighbors to the 
north. You would also come to understand that the economy of 
the Hi-Line northern part of our State and its success is 
closely tied to the presence of Amtrak and rail service.
    From Montana's perspective, the greatest need is a national 
passenger rail policy that includes long-distance routes with 
multi-year Federal funding packages that would support it. 
Without such a policy, Amtrak is doomed to forever struggle to 
survive and provide basic services.
    We believe that Congress must consider establishing a 
policy that preserves existing passenger routes. Some recent 
Amtrak funding proposals include recommendations that States 
pick up more of the financial responsibility for the services 
they receive. Because the population density in Montana is very 
low, the cost of the State match or contribution per capita, we 
hope, would be proportional and fair. We pay our fair share--in 
fact, perhaps more than our fair share--in the sense that we 
have the ninth highest tax on gasoline and the tenth highest 
tax on diesel in this entire country.
    Montana has 69,000 miles of roads that are open for public 
travel, with 1,191 miles of interstate highway systems and 
10,572 miles of State and Federal highways. Because of this 
vast roadway system, Montana struggled to provide matching 
funds for highway maintenance. The State has a population of 
940,000 people that are spread over 145,000 square miles. We 
are the fourth largest State. We have about 6.51 persons per 
square mile. We have more deer, elk, antelope, cattle and sheep 
than we have people. If we could figure out how to tax them, we 
would might be able to kick in a little more from the State 
side, but we haven't been able to do that. So I would help when 
we develop funding formulas there would be a sense of fairness 
and portionality.
    Long-distance passenger routes such as the Empire Builder 
provide national benefits, including reduced emissions compared 
to car travel and travel that will become more costly when we 
look at $3, $4 and $5 a gallon gasoline. Furthermore, it is an 
alternative to crowded airports and highways. For Montana 
citizens who have few transportation options, Amtrak provides 
essential connectivity between this State and the rest of our 
great country.
    We in Montana are hopeful that Congress will continue to 
support Amtrak's long-distance service and will not require 
financial contributions towards long-distance service from low-
population-density States. A national passenger rail system 
without long-distance routes is not a national passenger rail 
system. We are the United States. We are not separate, 
independent nations.
    This concludes my statement. Thank you again for the 
opportunity to participate in this important discussion. I will 
be glad to respond to any of your questions.
    Thank you, Madame Chair.
    Ms. Brown of Florida. Thank you.
    Ms. Brown of Florida. Governor.
    Mr. Schweiker. I represent a large business advocacy 
organization with members across three States--southeastern 
Pennsylvania, southern New Jersey and northern Delaware.
    Today, in my role as chairman of the CEO Council for 
Growth, it is my pleasure to provide some perspective and 
recommendations which I will outline briefly in a moment. As 
you know, the Growth operation is found in the written 
statement that was provided days ago.
    Just to mention, the CEO Council's mission is to enhance 
the competitiveness in the region in the global economy. A key 
to this mission is an enhanced Federal commitment to Amtrak's 
Northeast Corridor, which is central to the future economic 
growth of our region.
    I should mention that greater Philadelphia has some 
distinctions as relates to Amtrak. It is the only region in the 
country with three big stations: Trenton, Philadelphia and 
Wilmington. Certainly you are aware to the usage of those 
particular stations. In fact, 3.5 million Amtrak passengers 
used Philadelphia's 30th Street Station in 2006, with a top 
destination being New York City, followed by this city, 
District of Columbia. In a highly skilled workforce, our 
regions easy access by train to the Nation's financial capital 
and political capital in Washington is one of our primary 
advantages.
    Let me mention as far as the magnetism of Amtrak and what 
it means. Someday perhaps you will be able to visit. There is a 
large new high-rise literally next to Amtrak's 30th Street 
Station. It took about 3 years to fill up this high-rise. I 
think it is a concrete example of the economic impact of and 
the attraction of good intercity rail service.
    Finally, as we talk about perspective, let me mention that 
Amtrak's infrastructure is critical for the operation of our 
regional transit systems. Fifty percent of the local in the 
Pennsylvania realm SEPTA trains rely on Amtrak's rail and 60 
percent of New Jersey transit trains are dependent on Amtrak's 
tracks and signal systems.
    As one considers the operation of Amtrak, I cannot 
overstate the absolute vital nature of Amtrak to smooth 
operation of commuter rail and the economic performance of the 
greater Philadelphia region, which I just mentioned falls into 
three States.
    Also, Congressman Shuster did mention the Keystone Corridor 
which connects out to Lancaster and the State capital. That is 
a key part of the region's suburban commuter rail network. It 
is something that Tom Ridge and I had began. I want to 
acknowledge that Governor Rendell, our current Governor, has 
continued that between the Commonwealth and Amtrak.
    So important connections and a sense that the partnership 
already exists, I want to make that historical note.
    When I talk about our region, let me mention that I focused 
my comments in the first minute or two in our region. 
Interstate 95, another region, is congested from Boston to 
Washington, with the most delays in the New York, New Jersey, 
Philadelphia area. Obviously, Amtrak can be a great source and 
network for moving people more efficiently.
    Finally, the Northeast region will add nearly 20 million 
new residents by 2050. If our transportation system is going to 
continue to function, we will need significant new capacity in 
all modes of transportation, air, road networks, as well as 
intercity rail. Hopefully, our opportunity to visit today does 
lead to a brighter future for Amtrak and not necessarily the 
moments we experienced in the last couple of years where we 
were defending its essential nature.
    Finally, let me mention our recommendations:
    One, to find a secure source of funding for intercity 
passenger rail. The Northeast Corridor is too important to be a 
hostage to yearly crises where Amtrak is threatened with 
bankruptcy by the administration or Congress.
    Hopefully, you will see a way in the reauthorization 
proposal to define what is "state of good repair" and provide 
the associated funding to achieve it.
    Number three, reduce the trip time of both north and south 
ends of the corridor.
    And, fourth, in our estimation--I speak for the business 
community, 5,000 strong--require Amtrak to work with the States 
and the commuter railroads to develop a plan to increase the 
capacity of the corridor through these partnerships.
    And rest assured, Madame Chair, we appreciate the 
opportunity to provide comments today, and with the business 
community and also working in tandem with similar interests in 
Boston all the way down to Richmond, we would like to work in 
alignment with this Committee to fashion the reauthorization 
proposal.
    Ms. Brown of Florida. Thank you, Governor.
    Ms. Brown of Florida. Ms. Nekritz.
    Ms. Nekritz. Thank you, Chairman Brown, Members of the Rail 
Subcommittee.
    As Chair of the newly created Illinois House Rail Committee 
and a commissioner from Illinois to the Midwest Interstate 
Passenger Rail Commission, I am honored to share with you some 
of Illinois' exciting news about passenger railing as well as 
the challenges we face and the future for passenger rail in 
Illinois and throughout the Midwest.
    I also want to thank Congressman Lipinski for making sure 
that I got here today and for his very strong leadership in 
Illinois.
    For many years, Illinois has made an investment in 
passenger rail by purchasing Amtrak service along four 
corridors. The schedule, however, wasn't so great and didn't 
necessarily allow for easy round-trip travel between Chicago 
and down-State communities. Despite these difficulties, 
Illinois saw a 40 percent increase in ridership between 2003 
and 2006.
    Responding to this demand, the State doubled its spending, 
for a total of $24 million for State-sponsored Amtrak service. 
Starting October 30th, 2006, we purchased additional daily 
round trips on three of the four corridors.
    When the new service was announced, it was widely applauded 
by the media and local elected officials and citizens, but I 
don't think anyone could have anticipated the response from 
riders. In the first 6 months, ridership was up dramatically, 
from 60 percent growth on the Chicago/Quincy line to over 100 
percent growth on the Chicago/St. Louis line; and that growth 
continues despite problems with performance and equipment 
breakdowns. These results clearly demonstrate the significant 
demand for passenger rail service in Illinois and the Midwest.
    Providing new service is only the beginning for my State. 
To continue the service at the current level and any chance of 
building on success, we have some challenges to meet.
    The first is the lack of trainsets. When we bought our new 
service, we wiped out any remaining inventory that Amtrak had 
of locomotives and cars. So when there are breakdowns, we have 
delays. When trains are sold out, which happens more often they 
we could have anticipated, there are no cars to accommodate new 
passengers. We clearly cannot provide any new service until 
this problem is resolved.
    Our second hurdle is the infrastructure on the host rail 
lines--both the quality of the maintenance and the conflicts 
with freight traffic. For example, the Union Pacific line 
between Chicago and Springfield has 20 slow orders that require 
Amtrak to run at reduced speeds, sometimes no more than 10 
miles per hour. The conditions and lack of adequate sidings on 
all the lines prevent passenger and freight trains from going 
past each other in an orderly fashion.
    While Illinois has upgraded a portion of track on the 
Chicago/St. Louis line to accommodate trains at 110 miles per 
hour--we are very jealous of Pennsylvania for that--more needs 
to be done to make passenger rail run fast enough to attract 
more riders.
    Finally, we need to expand beyond our existing routes to 
Rockford, the Quad Cities, Decatur, Peoria and Galena. The 
mayors of these communities have expressed strong interest in 
pursuing new train service, and our Department of 
Transportation is currently engaged in studying the viability 
of such service.
    To be successful, the State of Illinois needs partners. We 
are hoping the Federal Government will join along as a partner, 
as has Amtrak and the freight railroads.
    First, I want to applaud the work Congress has done to keep 
the Amtrak contract funding at the level that it has. This 
year, Amtrak has requested $1.55 billion for operations and the 
Senate has proposed $1.78 billion. I would certainly encourage 
the higher level.
    In addition, a Federal matching program similar to that for 
other modes of transportation would give States the boost they 
need to meet the demand for passenger rail service. An 80/20 
match would give Illinois the incentive and ability to address 
the problems I outlined earlier. An 80/20 match would also put 
us much closer to realizing the vision of the Midwest Regional 
Rail Initiative, which I am sure you will hear more about 
later, to connect the entire region with high-quality, higher-
passenger rail.
    Finally--this may not be the right place, but I don't want 
to go without mentioning this--Federal support for the Chicago 
Region Environmental and Transportation Efficiency Project, 
known as CREATE, is critical for us. As you are well aware, 
CREATE is a "project of national significance" in the recent 
transportation reauthorization SAFETEA-LU; and while CREATE is 
vitally important for the transport of freight across our 
country, it also does have passenger rail benefits.
    Illinois as a State is considering funding for CREATE as 
part of a capital program, but without support from the Federal 
the project cannot provide the full benefits that we so 
desperately need.
    I am grateful for this opportunity. The State of Illinois 
is committed to continuing our work to improve passenger rail 
service, and it can be better for our citizens in our region 
with the active involvement of the Federal Government. Thank 
you.
    Ms. Brown of Florida. Thank you.
    Ms. Brown of Florida. Ms. Williams.
    Ms. Williams. Good morning. I am Commissioner Velma 
Williams from the City of Sanford, Florida. I am indeed honored 
to be invited to testify before you today regarding the 
benefits of intercity rail passenger service.
    I also want to you know how proud we are in my community to 
be represented in Washington by Congresswoman Corrine Brown, 
the Chair of this Subcommittee, and Congressman John Mica, the 
ranking Republican Member of the Committee on Transportation 
and Infrastructure.
    The City of Sanford is about 20 miles north of downtown 
Orlando. We are the original "big city" in Central Florida. 
This was because our location on the St. John's River and a 
very early connection with the railroads. In 1880, the South 
Florida Railroad was completed between Sanford and Orlando to 
carry passengers and freight from our port to inland 
destinations, including a small settlement to the south named 
Orlando. In 1881, the railroad was extended west to Tampa.
    Today, Sanford is a thriving community of 52,000 people. We 
are the largest city in Seminole County, and we serve as the 
County seat. Our economy has been based on agriculture, but, 
like much of Florida, the landscape changed quickly. We are 
fortunate to have a growing and diverse economy. Traditional 
cities like Sanford are being revitalized, new developments are 
being sited in a manner to preserve much of the natural Florida 
that residents cherish.
    Our transportation system has played an important role in 
the City of Sanford's evolution. We are served by Interstate 4, 
the GreeneWay, which is our equivalent of a beltway, an 
extensive network of local roads, Orlando Sanford International 
Airport, Lynx, bus service and Amtrak.
    Traffic congestion, especially on Interstate 4, is a 
chronic problem. Additional lanes have been added in recent 
years, interchanges have been built, and a major regional 
chokepoint was fixed with the construction of a new bridge 
built across the St. John's River. Even with these 
improvements, Interstate 4, which is the spine of our regional 
transportation system, is the road that Central Florida drivers 
want to avoid. This often causes problems with visitors and 
freight movement as well.
    Our national transportation policy in recent decades has 
focused on highways and automobile travel. The Interstate 
highway system has been the centerpiece. Designed in the 1950s 
and completed just recently, it was an extraordinary 
accomplishment. It has connected metropolitan areas across our 
great Nation and set a standard that is the envy of most 
countries throughout the world. State and regional 
transportation policies have, for the most part, also 
emphasized highways and automobile travel.
    Many will say that these policies have served us well, and 
there is a great deal of truth to this, but something happened 
along the way. We somehow forgot about the important role that 
railroads have played in our Nation's history, and we have 
failed to see the opportunities they hold for our future. It is 
time for a change, and that can begin today with this hearing.
    Our national rail passenger system, Amtrak, has had a long 
and complex history. I am not an expert on this, but I can 
speak to what people see today, at least in Central Florida, 
and what I believe people would like to have as part of our 
future.
    Amtrak provides an attractive and reasonably priced 
alternative to the automobile in the Northeast Corridor between 
Washington and Boston. In addition, I have heard it is popular 
in some areas of California. However, beyond that, Amtrak does 
not have the financial means to provide the type of service 
that most people demand today.
    In Central Florida, Amtrak provides several trips a day in 
each direction between Miami and points north. Service for 
regular passenger trains are provided at three stations, one in 
downtown Orlando and one in Winter Park and one in Kissimmee. 
Amtrak's Sanford station for regular trains was closed a number 
of years ago to reduce operating costs and due to damage as a 
result of the hurricane.
    I would like to have this historic station reopened by 
Amtrak--or we would like to have this historic station reopened 
by Amtrak. This would increase ridership and avoid having 
people travel south to Winter Park to use Amtrak, and also it 
would be a nice complement to start up the Central Florida 
commuter rail service in the year 2010.
    Amtrak continues to operate the AutoTrain in the City of 
Sanford. This is an innovative service that has proven to be 
very popular. Passengers travel in comfort on overnight trips 
between Lorton, Virginia, and Sanford, Florida. This takes cars 
off of Interstate 95 and Interstate 4. When travelers arrive in 
the City of Sanford they can enjoy all that central Florida has 
to offer or continue their trip to Tampa, southwest Florida or 
Miami as a result of the turnpike. This service is unique in 
this country. It serves as a wonderful example of how the 
market responds to innovative ideas. I was very pleased to hear 
recently that Amtrak is planning to make improvements to the 
Sanford AutoTrain station. Please fund them so that can be 
possible.
    Last year, nearly 400,000 passengers used the Amtrak 
station in central Florida. This number has fluctuated in 
recent years. There are a number of subsequent reasons for 
this, which is not really important. However, I firmly believe 
that if trains were more frequent and trains operated at higher 
speeds, there could be significant increase in Amtrak's 
passengers.
    I also believe that the potential is great for quality, 
high-speed rail between Florida's major cities. At a minimum, 
this would include Jacksonville, Tallahassee, Orlando, Tampa, 
and Miami. In the year 2000, Florida voters approved an 
amendment to the Florida constitution to provide for 
construction of the intrastate high-speed rail passenger 
system, but something happened there, which is not important 
either.
    Conditions in my region and throughout the State of Florida 
are, in my opinion, ideal for a rebirth of passenger rail 
service. But today I am asking the distinguished Members of 
this Subcommittee to consider an ambitious passenger rail 
program on a national scale. This will involve upgrading 
existing lines, establishing new routes, refurbishing existing 
stations, building new stations, investing in new equipment and 
providing new service. It will probably involve new ways of 
doing business.
    Ms. Brown of Florida. Ms. Williams.
    Ms. Williams. Yes.
    Ms. Brown of Florida. You have about one minute to close.
    Ms. Williams. Okay.
    Ms. Brown of Florida. But you can close now, and then we 
can ask you some questions as we move forward.
    Ms. Williams. Let me say this, bottom line, that interstate 
intercity passenger rail is definitely needed. That is an 
unquestionable need, and I feel that Amtrak--we feel that 
Amtrak is the key. We feel that Amtrak should be funded.
    So I leave you with the question, if there is no funding 
for Amtrak, then why? If there is no funding for Amtrak now, 
then when? If there is support and funding for Amtrak in these 
chambers, then where is the support? I say to you, be bold, be 
encouraged and embrace change. Thank you.
    Ms. Brown of Florida. Thank you, Ms. Williams.
    Ms. Brown of Florida. Thank you all for your testimony.
    I need to go back to the Lieutenant Governor, because one 
of the major debates in Congress constantly is about Amtrak not 
paying for itself, running services to areas that are not 
highly populated like your area. It doesn't seem to be a clear 
understanding, the importance of having rail systems in your 
area, and that is really one of the major disconnects I think 
about the system. So I would like for you to expand on that in 
your testimony.
    As I was reading last night, you talked about there is no 
bus or air transportation system in your area. Has there ever 
been any and why is it important that we in Congress look at 
connecting your area with the rest of the country? Because 
there are many who constantly propose cutting it off because it 
doesn't pay for itself.
    Mr. Bohlinger. Thank you, Madame Chair. Those are good 
questions.
    Let me first address the concern that Congress may have 
about someday creating a rail system that will pay for itself. 
There is no rail system in the world that pays for itself. You 
can't generate enough revenue through the sale of tickets to 
provide for the services. So the people of these great 
countries that have good rail systems are providing a subsidy 
to keep those systems alive. I liken it to the kind of public 
investment that is made in education, the kind of public 
investment that's made to provide human service efforts for 
government. There are similarities here. It's what a great 
nation, a great country is held together with.
    Now, with respect to States like Montana, a low-population 
State, we only have 944,000 people, but yet we are citizens of 
the United States. We are not a separate and independent 
nation. We are part of a great nation. And we have a Federal 
highway system that was built for the benefit of all citizens 
of this country, providing them the opportunity to travel from 
the east coast to the west coast.
    Now, all segments of that highway system do not necessarily 
pay for themselves because of low traffic. But it is a 
federally subsidized, federally funded system that bears great 
value to this country.
    The same sort of expression of value could be found if we 
were to provide sustainable funding for a rail system that 
would benefit all citizens of this country, among them the 
opportunity to travel, to go to work or to vacation. Just 
because we don't have--we only have a half million riders on 
the Amtrak system, which is not great in comparison to the kind 
of ridership that is generated in Pennsylvania or Illinois or 
Florida, but we are contributing our part.
    It is interesting to note that the--I keep harkening about 
the highway system. The Federal highway system is supported 
through tax dollars on the sale of gasoline and diesel fuel. 
Montana has the ninth highest tax on gasoline in the country, 
the tenth highest tax on diesel fuel. This is a great 
commitment by the people of our State to the benefit of our 
country, and I feel that we have made our contribution. I feel 
that Montana, unless we can figure out how to tax the deer, 
elk, antelope, cattle and sheep, I don't know where the 
additional revenue will come from. But we try, and we are 
members of a great nation and would expect that the Congress of 
this great nation take into consideration the importance of the 
connectivity of bringing our nation together.
    Thank you, Madame Chair.
    Ms. Brown of Florida. I hope you don't keep mentioning the 
cattle and the sheep, because we will figure out how to tax 
them.
    Mr. Bohlinger. Very good. Thank you, ma'am.
    Ms. Brown of Florida. I want to ask the Governor a 
question, because I understand he is going to have to leave, 
and then I will turn it over to Mr. Shuster.
    How would the greater Philadelphia business community 
benefit from the increased Amtrak presence? What support would 
the business community--what kind of partnership can we do with 
the business community and with the Federal Government?
    We are discussing a greater role for the States, and I 
guess my question, as he mentioned earlier, I don't think that 
should be a mandate from us. I think that should be something 
that we are committed to do.
    We spend almost $9 million a week in Iraq; we are not 
willing to spend $4 million for the entire system. We are 
talking $1.7 billion, and we think that's great, hooray. When 
every single industrialized country, when they came and 
testified, they talked about billions of dollars that they put 
into the system.
    Governor.
    Mr. Schweiker. Madame Chair, thank you.
    I want to address not only the first element of your 
inquiry, the economic reward, the economic impact. In our 
experience, it is unquestionably positive.
    I mentioned the Cira Centre, the high-rise building. They 
are now talking about development of a second large building. 
So it says something about the magnetic appeal of the proximity 
of rail service in the intercity. When that is accented, it 
stands to reason that you will get more.
    Let me also say it stands on the outlay of Federal funds 
for transit, the economic reward which I think, when handled 
properly, is unquestioned and positive. We often do not accent 
the environmental dimension. There are lots cars in the world. 
There is an environmental impact of a positive nature as well, 
so that ought to be considered.
    As it relates to our interest and hunger to partner with 
the Federal Government in the operation of Amtrak, as 
Congressman Shuster mentioned moments ago about the Keystone 
project, every stop along that line from Philadelphia to 
Harrisburg is a result of that partnership. And working in 
tandem shows increased ridership. It is picking up.
    I believe it is not just in Pennsylvania. I think 
California shows some pretty interesting numbers as far as 
increased ridership. It is a matter of promoting it.
    The business leaders that I represent, as enlightened as I 
believe they are and certainly distressed by some of the 
commentary that at times comes from the White House, is 
interested in opening up the discussion, making it clear that 
it is about companies, jobs and paychecks. Your constituents, 
our residents, they are CJP--companies, jobs and paychecks--for 
residents. Partnership leads to them.
    Ms. Brown of Florida. Yes, sir.
    It has been a real fight for the past few years when we 
have a recommendation from the White House to zero out the 
complete budget, which is ludicrous, and then this year $900 
million, which is also ludicrous.
    I turn it over to Mr. Shuster.
    Mr. Shuster. Thank you.
    I think it is important to point out if you look back over 
our history the major economic developments that occurred 
through our history were transportation projects, were the 
canal system through the country, the Union Pacific Railroad, 
the Transcontinental Railroad in the 1860s that connected east 
to west, the Panama Canal, the interstate highway system. What 
followed was economic boom times for America.
    I might add as well those were all Republican initiatives. 
Some of my colleagues have forgotten that it was Republican 
initiatives; and it is in the Constitution that the Federal 
Government is here to provide financial security and national 
defense, which transportation is key to that, intercity 
commerce and now global commerce. So I like to remind those on 
my side of the aisle that those are important components of the 
Republican party.
    My question is on the Eastern Corridor. Somebody said speed 
kills, but when it comes to trains, speed attracts passengers 
and with that comes economic development. When I look at the 
market on where Amtrak is, it is more the strong Northeast 
Corridor, Philadelphia to New York, Philadelphia to Washington, 
Philadelphia to everywhere. If we can get the rail service up 
to 110 miles per hour, how important is that going to be to the 
Northeast Corridor in your opinion and in the opinion of the 
business community that you represent?
    Mr. Schweiker. The obvious picture comes to mind of greater 
speed amounts to quicker travel, and it is fueling for a 
stronger economy over time. Whether it is more commercial 
tenants that decide to center themselves near our station, to 
an industry that may be nearby, all of that I think is made 
more likely when business executives can count on a stable 
system and the availability of intercity passenger rail.
    So that is what brings me here. For Members of the 
Committee, I came down on Amtrak today, and I will soon take an 
Amtrak train back. I love it. Once people experience it, they 
are inclined to use it more. The same goes for business people. 
I think that explains the increased ridership. And you throw in 
$3.60 for a gallon of gas, people will think about using rail. 
So we will stand shoulder to shoulder with this Committee as 
they shape the reauthorization proposal.
    Mr. Shuster. Does the chamber have a view--there has been 
some talk on States especially with the corridor, having a 
greater ownership or say in the corridor. Does the business 
community have a thought on that happening?
    Mr. Schweiker. There is a view for partnerships that has to 
be defined.
    To mention Cira Centre again, next door, it looms up next 
to the 30th Street Station. That is a result of enlightened 
thinking and accommodation and partnership in a concrete sense. 
I would love to invite you to come out. You get on at Union 
Station, and you would never have to leave the air 
conditioning. Because Cira Centre is literally connected by a 
footbridge to the 30th Street Station.
    All of that speaks of economic return and, of course, our 
belief that, with accommodation, public-private partnerships 
with Amtrak would provide that kind of payoff.
    Mr. Shuster. Thank you.
    Lieutenant Governor Bohlinger, we, of course, preparing for 
this heard from a number of people; and the bus companies in 
Montana said that Amtrak has an unfair advantage and that there 
is no bus service. Can you speak to that?
    Mr. Bohlinger. Thank you, Congressman.
    We have no intercity bus service through much of Montana. 
The bus companies might say it is because of the Amtrak 
competition.
    Mr. Shuster. They say unfair competition, which I am not 
quite sure--go ahead.
    Mr. Bohlinger. Unfair competition, I don't understand that. 
I mean, the Amtrak train runs east and west. It makes a trip 
east once a day, a trip west once a day. It is not regular 
passenger rail service. I don't see that as an unfair 
competitive advantage. The bus companies I think have abandoned 
these small towns in northern Montana because there are fewer 
riders. But our ridership on Amtrak, the numbers are 
increasing. I believe in the last couple of years we had a 30 
percent increase in ridership.
    Now, I don't think that is ridership that has come as a 
result of the bus companies giving up the ridership--their 
service to the area. Amtrak is more convenient.
    Mr. Shuster. Thank you. My time has expired.
    Ms. Brown of Florida. Lieutenant Governor, I am going to 
turn it over to Mr. Michaud, but one of the things you 
mentioned is that during the wintertime that is the only way 
that people can move around because of the snow and the 
conditions of your two-lane roads. So can you give us a minute 
response on that before I turn it over to my colleague?
    Mr. Bohlinger. Yes, ma'am.
    During the winter months, it is not uncommon for the 
northern part of our State to have what we call Alberta 
clippers. We blame all our bad weather to our neighbors in the 
north. It will close our two-lane highway, the only east-way 
route across the northern part of our State. It is unsafe for 
travel. The roads are closed. The train always goes through, so 
it does provide safe travel for Montanans as well as for 
American citizens, yes, ma'am.
    Ms. Brown of Florida. As we develop the system, I think we 
need to think about--all we have to do is look at Katrina, and 
we need to--it is not just economic development, certainly that 
is a major part, but also security is a part in how we move our 
citizens out of harm's way.
    Congressman.
    Mr. Michaud. Thank you very much, Madame Chairwoman.
    I am very supportive of rail, both passenger and freight 
rail. In the State of Maine, we have a population of 
approximately 1.3 million. There is a lot of increase in 
passenger rail from Portland further north. However, it is a 
very rural State. The population might not warrant building new 
lines for passenger rail.
    So I would like to have each of the panelists, starting 
with you, Lieutenant Governor, how would you envision rail, 
passenger rail, working with the private sector, the freight 
rail folks to help build their--utilize their lines to build it 
up to standard so you can use both, particularly in a rural 
State that might not warrant more lines for passenger, by using 
the freight, the private sector on the freight rail, which is 
Portland, Maine, if you look at the paper industry moving their 
products out on the freight lines. Comments?
    Mr. Bohlinger. Thank you, Congressman.
    The rail lines are owned by private companies, maintained 
by private companies. Amtrak leases space to run their trains 
twice a day across these rail lines. As far as expansion of 
rail service in Montana, at one time, up until 1972, we had 
what was called the northern route as well as the southern 
route across our State. The southern route was abandoned at 
that time, although there was greater ridership along the 
southern route because it provided service to the cities of 
Billings, Bozeman, Butte, Missoula, our greater population 
centers, the quickest way to the west coast from Chicago to 
Seattle and Portland that Amtrak was interested in. It was a 
quick way of getting there.
    They abandoned the southern route. I would love to see the 
southern route reestablished to provide travel by rail to those 
people who live in southern Montana. I would support the 
expansion of rail service in Maine to take it from Portland 
north.
    This is the United States of America. It is the 
connectivity that would provide opportunity for Americans to 
travel. I think it is something I think Congress should be 
concerned about.
    Ms. Nekritz. Congressman, if I may-- I am sorry.
    Mr. Michaud. Do you think the Federal Government should 
provide funding to upgrades in the private sector as well? It 
is one thing--if the private sector hasn't the funds to upgrade 
their system to allow, you know, thoughts on that as well.
    Mr. Bohlinger. Thank you, Congressman.
    I think that a Federal investment in the expansion of rail 
service, whether it is putting in new lines, upgrading present 
lines, partnerships have to be formed; and the Federal 
Government has deeper pockets than private sector as well as 
State governments. I would encourage that.
    As our chairperson said, we are spending--is it--$9 million 
a week in Iraq. We should be investing in this country 
proportionally. Thank you.
    Ms. Nekritz. Congressman, thank you.
    In Illinois, all of our trains run over freight lines. 
There are no dedicated lines, so we face a lot of the same 
challenges. While they can be a good partner, they don't 
necessarily make an investment in infrastructure that will 
improve passenger rail. They will make the investment to 
improve their train service but not passenger rail.
    The only way we can get that is with a government or a 
public investment. So that is--we made some of that in 
Illinois, but we definitely need some help from the Federal 
Government on that. I think that is the only way it is going to 
happen.
    Mr. Schweiker. I think public policy that exists on 
cooperation, the logistics can be worked out. There has to be 
willingness of both parties so that can happen. I do think--I 
am not sure about the willingness on the part of the freight 
moving industries. I think you know my point.
    I do think as we talked about--I don't hold myself as 
anyone who is greatly conversant with conditions existing in 
Maine, but, as I see it, we need to justify attention for just 
such an approach to operate what we have now well, build a case 
for it, not just to non-members of Congress but for the 
populous among the institutions that see the reward of doing it 
well. I think over time the P3s, the public- private-
partnership community, perhaps maybe can work it out.
    So it is a matter of operating it well and then think about 
the expansion. I think that creates the justification for that 
timely maneuver. No easy answers, as you certainly suggest by 
the question.
    Ms. Williams. I would like to say I think it is incumbent 
upon our government to play a major role in reaching out to 
develop partnerships and maybe give some type of incentive for 
private industry to come on board. I don't see how we are going 
to survive here in America without developing partnerships.
    Ms. Brown of Florida. Okay, thank you.
    We are going to go now to Congressman Gerlach, but I want 
to correct myself. It is $9 billion a month. Even up here that 
is some money.
    Mr. Gerlach. Thank you, Chairman.
    Good morning, everybody. Thank you for testifying.
    Governor Schweiker, great to see you again.
    I want to offer a question to you, but it really applies to 
the other presenters here based on your experiences with Amtrak 
in your areas. My district is right outside of Philadelphia, 
and my constituents rely heavily on the Keystone Corridor for 
travel and very much want to see more funding for Amtrak 
services, and so I am very much in support of that as well.
    Mr. Gerlach. And we want to try to accomplish as much as we 
can here in this funding cycle for that. But I am also finding 
back in the local area there are Amtrak properties, rail 
stations and properties generally, that are underutilized, that 
have opportunities for commercial development, that could be a 
source of revenue for Amtrak and to the local communities; or 
if they are not going to be used by Amtrak just because of 
changes in service and changes in technology that they do not 
need the sizes of rail stations that they have now, it could be 
turned back to local communities for other economic development 
purposes.
    So I would be curious as to your thoughts, on the one end, 
of how we all want to work towards getting the resources to 
Amtrak from the Federal level that then, in turn, help provide 
for better service in our localities and States. How can we 
also, at the same time, encourage the better utilization of 
Amtrak properties in the 21st century so it brings a greater 
return to Amtrak and a greater return to the local communities 
that have those properties situated in their areas?
    So I will start with Governor Schweiker, if you have a 
thought on that. But I will also leave it open to the other 
presenters.
    Mr. Schweiker. Well, my immediate reaction is, in having 
been involved in the administration as governor for some time, 
as well, all know, in a bureaucracy, sometimes bureaucratic 
thinking takes over all of the ways of thinking to maintain 
themselves. Perhaps, as it relates to Amtrak, there are those 
who do not see the commercial opportunities that are associated 
with those structures or with those locations, and it is a 
matter of opening themselves up to that possibility. I mean, 
with public-private partnerships, we know what P-3s are all 
about, and they work in plenty of locales with many different 
applications.
    Individually speaking--and I think the business community 
feels as I do--with some open-mindedness internally at Amtrak, 
given the opportunity to ponder what a P-3 could do, there 
could be some real positive economic development opportunities 
to follow, and they could be profitable. So it probably boils 
down to, as one contemplates the language of the 
reauthorization proposal, there being an encouragement to those 
at Amtrak to think about such maneuvers, such accommodation, 
and seeing what can come of it.
    But it is when the marketplace can properly work its magic 
that there is proper accommodation by those who make public 
policy in an organization like Amtrak.
    Mr. Gerlach. Other thoughts?
    Mr. Bohlinger. Yes, Congressman.
    I certainly would encourage public-private partnerships, 
you know, with the collaboration of especially, say, historic 
buildings that had once accommodated a great rail system that 
might be owned by Amtrak today. As they downsize space and find 
they do not need these grand ballrooms, they can--they are kind 
of like Union Station here--develop a wonderful commercial 
enterprise and add to the economy.
    The rail stations in Montana are not owned by Amtrak. They 
are owned now mostly by the municipalities, the cities and 
towns that had these stations, and they are put to great public 
use. You know, partnerships have been formed, and you will 
find, when you come to Montana for a vacation, that we will be 
able to show you some great historic stations and how they are 
used.
    Mr. Gerlach. Thank you.
    Anybody else?
    Ms. Nekritz. I was interested in your question because that 
is not an issue that we have in Illinois, and I think it is 
because, in many ways, our stations are owned by the 
municipalities as well; and to the extent that there are unused 
facilities, those municipalities are now clambering for Amtrak 
to try to come back and reopen those facilities and use them 
for the purposes for which they were intended.
    So I am not sure that we have the same kind of issues.
    Mr. Gerlach. Okay. Thank you.
    Okay. Well, thank you. I appreciate that.
    Thank you, Madam Chairman.
    Ms. Brown of Florida. Mr. Lipinski.
    Mr. Lipinski. Thank you, Madam Chairman.
    I wanted to thank all of you for your testimony this 
morning. We are all focused here on Amtrak and what we can do 
to help Amtrak do its job, and I want to thank and to 
compliment Representative Nekritz for her leadership in 
Illinois.
    Illinois has doubled its operating assistance to Amtrak and 
has doubled Amtrak's service in the State, and at a time where 
there has been such a desire among some of the administration, 
among others, to cut Amtrak, it is great to see this happening 
in Illinois.
    So my first question, Representative Nekritz is:
    How did this come about that Illinois is able to make this 
commitment to Amtrak service, to increasing Amtrak service?
    Ms. Nekritz. Thank you, Congressman Lipinski, and it is 
good to see you.
    The growth in ridership was there; before we doubled the 
service, the numbers were increasing, and I think that the 
effort--it was, really, a very bipartisan statewide, 
multiregional effort just to recognize and to say, "You know 
what? The citizens are demanding this, and it is time we start 
delivering on it; and if we do that, we can demonstrate, I 
think," as some of the other panelists said, "that if you build 
it, they will come and start, and then we can use the numbers 
that result to do even more."
    So it was really a remarkable effort by, you know, people 
who do not normally work together in the Illinois General 
Assembly.
    Mr. Lipinski. Mr. Schweiker.
    Mr. Schweiker. Mr. Lipinski, if I could, I do believe that 
regular folks, given the opportunity--I mean, they cannot come 
to D.C. all of the time--will tell you the same thing. They 
like to be heard. They think it makes sense. And for some 
reason, it does not always manifest in the response of public 
policy, but I think it is just growing. Especially as people 
spend more time stuck on highways and dealing with security at 
airports and that kind of thing, it is growing.
    Mr. Lipinski. Does either the commissioner or governor want 
to respond?
    Ms. Williams. I would just like to say, in terms of 
commitment from the officials, in addition to the 
businesspeople, that I think that a commitment would be there. 
For an example, I work very closely with the Chamber 
organizations--the Sanford International Airport and what have 
you--but I would need to be able to say to those groups that 
there is commitment from the top.
    So I need to ask someone here, if it is appropriate, 
Congresswoman Brown, is there a commitment from the top? 
Because you will find that people are willing to develop 
partnerships if there is a demonstrated commitment.
    So is there a commitment to Amtrak from the top?
    Ms. Brown of Florida. It depends on what "top" you are 
talking about. From this "top," yes, but I am not the only 
"top" in town.
    Ms. Williams. Well, you will understand what I am saying, 
which is that there needs to be a demonstrated commitment from 
all levels, at all levels, from all groups.
    Ms. Brown of Florida. I agree, and I think, as we move 
forward, that is a question that we need to put on the table. 
When people parade through your churches, through your 
community groups, through the different forms that we have 
throughout the country, this is a debate that needs to be on 
the table, I mean, because when we started out, we were number 
one as far as rail passenger was concerned, with the caboose--
and we do not use cabooses anymore.
    I am going to take you up; I am going to come to 
Philadelphia, sir. I have been there several times on the 
train, and I think every Member of Congress needs to do a 
little homework and try the train, and I am going to encourage 
everybody on our Committee to do that so that we can see the 
system and get a feel for the system.
    You know, I love to take the train from here to 
Philadelphia and go shopping. I will take everybody with me. 
You know, they have economic development and everything else.
    Mr. Bohlinger. I would love to accompany you on that.
    Ms. Brown of Florida. Mr. Lipinski, have you finished?
    Mr. Lipinski. Thank you, Madam Chairman.
    We were talking a little bit about this earlier, and 
Congressman Michaud had brought it up, but I want to focus 
again on the problems with the infrastructure.
    In Illinois, with the increased service, we are now running 
about 60 percent on time because of the bottlenecks in 
Illinois. Congresswoman Nekritz talked about CREATE, and it is 
a project that I have been championing--well, you know what I 
am saying; we are now working on it. It is going to take a 
while to get this done and to bring back the Federal money, 
$100 million, but these public-private partnerships are 
difficult to put together.
    In Illinois, in CREATE, we have the Federal money. We are 
working on the State money. We also have the city of Chicago; 
we have the passenger rail in the Chicago area also. We are 
putting in funding there, but it is difficult to do these 
things. In addition, we have the railroads, so we do have that 
private funding there.
    I just wanted to give Representative Nekritz an opportunity 
to comment some more on that and how CREATE is coming together 
and how important this is for Amtrak in addition to, you know, 
the freight railroads' being able to get their freight into and 
through Chicago, and also the commuter railroads.
    Ms. Nekritz. There are a couple of things I would say.
    The first is that we all have a vision--I think I heard 
that on the Committee--of having high-speed passenger rail. 
That is sort of the ideal.
    Right now, in Illinois, we can go 110 miles an hour, but it 
is not going to do us any good because we are going to go 10 on 
longer stretches, and then we are going to be able to go 110. 
So, until we get those conflicts with the freight straightened 
out and get the infrastructure to where we can accommodate 
those fast trains, we are wasting our time investing in 110-
mile-an-hour trains.
    We have got to get the infrastructure where we can at least 
go 40. That would be a big improvement in a lot of our areas.
    Secondly, with regard to the importance of CREATE, you 
know, CREATE is an $8 billion economic engine in the Chicago 
region, and if we do not invest in that, it does impact the 
entire country because two-thirds of all of the freight in this 
country, as you well know, goes through the Chicago region.
    So decongesting the freight system in our region is 
critically important not only because it helps our region, but 
because it does help goods move throughout the entire country; 
and as we become more and more dependent on imports and things 
getting transported across the country, that is the most 
important piece that we can straighten out right now, the 
congestion right in your district.
    Mr. Lipinski. There is one other thing I wanted to add.
    Positive train control is something that could be very 
helpful, and we are discussing that right now and working on 
that in the Committee. But that could be very helpful for all 
rail traffic in order to be able to run the trains safely, and 
it will help with congestion also.
    Thank you.
    Ms. Brown of Florida. Congressman Brown.
    Mr. Brown of South Carolina. Thank you, Madam Chair.
    I am just thinking. As we talk about the high-speed, did 
you go to the ball game last night?
    Ms. Brown of Florida. No, sir, I did not.
    Mr. Brown of South Carolina. Your Ranking Member hit a 
triple, and to see him go around those bases to third base was 
pretty phenomenal.
    Mr. Shuster. No. It was ugly. It was the first lay-down 
triple in the history of baseball. When I got to third, I had 
to lie down in the dugout.
    Mr. Lipinski. And I can tell you that he hit one of those a 
couple of years ago, too, one of those lay-down triples, so----
    Mr. Shuster. That is the second one I have hit, I guess I 
should say.
    Mr. Brown of South Carolina. Anyway, you would have been 
impressed.
    Let me just say, Madam Chairman, that there seems to be a 
great connectivity between the economic centers in the 
Northeast through Amtrak, and there is little or no 
connectivity between the economic centers in the Southeast; and 
I think my friend Ms. Williams might have alluded to that. Rail 
service is available between Atlanta and Charlotte. There is 
none between Charleston and Atlanta or Atlanta and Miami unless 
you want to go through Washington, DC.
    In addition to representing a growing district, I also 
represent a district that depends upon tourism for a large 
portion of its economy. I notice that, within the Amtrak route 
map, all of the routes that run through South Carolina are 
listed as long-haul routes. As the Southeast continues to grow 
both in population and in tourist traffic, I wonder if having 
all Amtrak routes into the region based this way is the best 
approach.
    And I know we talked about the interstate system, which was 
formed in 1954, and we do not seem to have expanded much on 
that. It seems like we are still stuck in that same time zone 
for the railroad system.
    And I am glad to have the members of the panel with us this 
morning. Would you like to elaborate on my situation and see 
how it might fit into your situation? I know that a lot of our 
folks might not come from Montana, but we would like for them 
to. A lot of them do come from the Northeast, coming down 
through my district to get down to Ms. Williams' district.
    Anyway, would you all care to expand on that?
    Ms. Nekritz. Well, I will take a stab at it.
    We, in Illinois, have invested State money in purchasing 
service, and that has laid the groundwork for us to come here, 
I think, and ask for some assistance to grow that system. I do 
not know, you know, what the situation is like in your States, 
but when we expanded the service last year, our governor, who 
was really not too much on board with this initially, stood on 
the back of the Amtrak train and with the bunting, and he waved 
at everybody at every town along the way; and it has been a 
phenomenal success.
    So it is, I think, a perfect melding of, you know, what the 
citizenry wants; and it is a really solid investment, I think.
    Mr. Brown of South Carolina. Do you have some kind of a 
shared arrangement between the Federal Government and the State 
government and the local government to help fund some of these 
initiatives; or can you still depend upon Amtrak, which 
basically is the Federal, plus, you know, whatever ridership it 
might receive?
    Ms. Nekritz. Right.
    Well, certainly, as to the Amtrak lines that we as the 
State purchase, those are strictly funded by State dollars, the 
service itself. We get a benefit from the fact that Amtrak owns 
equipment and can negotiate with the freight railroads as a 
result of the Federal laws and so forth. So there are certainly 
perks that come to Amtrak and, through that, to Illinois, but 
the service we purchase is--the operating line on that is 
funded by the State of Illinois.
    Mr. Bohlinger. Congressman Brown, I would like to offer 
some comment on the question that you pose; and I would first 
reference the opening remarks by Congressman Shuster when he 
discussed how this great country of ours prospered when we 
provided transportation opportunities for its citizens. Whether 
it was the canal system or our first railroad, it caused this 
country to prosper and to come together in a new and wonderful 
way.
    As to the expansion, that same opportunity exists today if 
we were to expand rail service to the cities that you 
referenced. The same opportunity would exist today if we were 
to expand the system out my way if we would, once again, open 
the southern route. It becomes, you know, a driving force in 
the economy.
    So I would encourage Congress to take into consideration 
any opportunity to expand service, and that becomes critical 
especially in the day of $3-, $4- and $5-a-gallon gasoline. It 
becomes critical when we look at airports that are so crowded 
and planes that do not run on time.
    In fact, I had--you will not believe this--a 14-1/2-hour 
travel day from Helena, Montana to Washington, D.C., yesterday. 
The plane was 2 hours late in leaving Helena because it was 
overloaded with fuel. It weighed too much with the passenger 
load. They did not syphon the fuel off; they burned it off. 
They burned it off for 2 hours, and then we had to land in 
Rapid City, South Dakota, to take on more fuel so we could get 
to Minneapolis.
    So it is these sorts of inefficiencies that need to be 
stopped.
    Mr. Schweiker. Congressman, I would mention that PHL, 
Philadelphia Airport, is fourth in terms of rate of passenger 
usage. It is growing. It is the fourth busiest in the country 
with the attendant delays the Lieutenant Governor just pictured 
for us, and that does drive people to rail.
    Yet, I find myself inclined to say at this point, as we try 
to rally around the idea of ample support for Amtrak, you 
know--capital and operating and generating broader support 
within Congress and, you know, ideally the White House--that it 
is a "one thing leads to another" dynamic.
    What we have got going now is, we have got to work to see 
to it that it operates efficiently so that it is appealing in 
ridership growth, and then that is a lesson you share with 
other areas in the country as you have just mentioned. It is 
that kind of dynamic, and thus, an earlier reference on my part 
mentioned four recommendations.
    One is, define the state of good repair and provide the 
associated funding to achieve it, and then you will get those 
efficiencies; you will get on-time performance up, and that is 
attractive to people. So it is certainly not the most 
insightful political counsel, but I think it is something to 
think about in Washington.
    Mr. Brown of South Carolina. I think it certainly verifies 
that we need total transportation oversight rather than just 
trying to micromanage the rail and the highway and airlines as 
separate structures.
    Mr. Schweiker. Absolutely, and get past the 1 year, you 
know, of what we have got to provide for Amtrak to muddle 
through. I think we do pretty good, all things considered, in 
terms of some of the hamstrings that they have experienced when 
you look at their operation.
    Mr. Brown of South Carolina. Thank you. I see my time has 
expired.
    Thank you, Madam Chairman.
    Ms. Brown of Florida. In closing, I know that the governor 
has to leave, and I would just like to give you all a minute 
for any closing remarks.
    Oh, I am sorry. Mr. Nadler.
    Mr. Nadler. Thank you.
    Governor, I have some questions for you in particular.
    Governor, you mentioned that we should find a secure source 
of funding for intercity passenger rail, and obviously, we 
should. A few years ago, we were considering TEA-LU before it 
was named "TEA-LU." this Committee reported out a $375 billion 
bill for the next 6 years because that was what DOT told us was 
needed in the 6-year period to keep the existing transportation 
system in a state of good repair.
    The administration objected to that. They said we should 
not do anything more than $256.4 billion because of their 
principles, their principles being, one, we should not use any 
revenues other than the gasoline tax, and two, we should not 
raise the gasoline tax.
    We had proposed in that initial bill that we should index 
the gasoline tax, which is now 18.3 cents a gallon. It is not a 
percent tax; it is a gallon tax. So, unless we increase the 
gallon usage, which is exactly what we do not want to do, 
obviously, the revenue from that is going to stay the same and 
will go down. With inflation, it has to go down.
    We had proposed indexing that to inflation and indexing it 
retroactively to the beginning of the pass-through, which would 
have been a 5.6-percent adjustment--we do not call it an 
"increase"--and then have it go up from there. The 
administration very much opposed that.
    Do you think that that is a useful idea for the future to 
provide transportation planning to adjust the gasoline tax, 
either to increase or to make it inflation-sensitive?
    Mr. Schweiker. I do not know the policy particulars, and I 
do not remember the ins and outs of that particular time.
    Mr. Nadler. Well, that was all behind the scenes anyway. I 
am just asking a basic question.
    If we are looking for a secure source of funding for rail, 
or for that matter, anything in transportation, you are going 
to start by making the only transportation tax we have really, 
which is a gasoline tax, expand; and the only way to do that is 
either to increase it by saying "we hereby increase it" or by 
making it sensitive to inflation.
    Mr. Schweiker. Here is a short answer to a complex 
question. I would say it makes sense to look at that----
    Mr. Nadler. Okay. Thank you. The other----
    Mr. Schweiker. --and to change the principles as far as 
what were the guiding considerations.
    Mr. Nadler. The second question on that is that some 
people--in 1993, as part of President Clinton's deficit 
reduction package, we imposed a 4.3-cent-a-gallon gasoline tax 
on all gasoline, diesel fuel, aviation fuel, et cetera, and 
that was to go to the general budget for the deficit.
    In 1997, with respect to everybody but railroads--
automobiles, planes, et cetera--we took those funds, and we put 
them into the Highway Trust Fund, the Aviation Trust Fund, et 
cetera. With respect to railroads, we did not do that. We kept 
it in the general fund, and 2 years ago, we simply repealed it. 
So the railroads now pay no gasoline--well, they do not pay 
that 4.3-cent gasoline tax that the other modes of 
transportation pay. By the same token, they do not get any 
benefits out of it, which the other modes do, that go into the 
Highway Trust Fund or into the Aviation Trust Fund.
    Do you think we ought to consider, perhaps, reimposing that 
and dedicating that to a railroad fund for capital improvements 
for passengers or for freight or for both?
    Mr. Schweiker. I do not feel I know enough about it at this 
point.
    Mr. Nadler. Okay. Thank you. Let me ask the third question.
    Hypothetically speaking, how would you feel or how would 
the greater Philadelphia business community respond to Amtrak's 
receiving priority over rail freight entering and exiting the 
greater Philadelphia area?
    Let me broaden that question, or perhaps, it is the other 
way around. Well, it is the other way around because they 
only----
    Mr. Schweiker. We do have some, yes, sticking points for 
sure. I think it can be worked out.
    Mr. Nadler. My real question that I am looking at is, we 
are looking certainly at the New York area and, in fact, at the 
New Jersey area.
    Mr. Schweiker. We have to work it out. I mean, it is 
limited trackage.
    Mr. Nadler. Well, we are looking at increasing congestion 
on both passenger and freight. East of the Hudson, less than 1 
percent of our freight comes in by rail. In northern New 
Jersey--in New Jersey, it is 15 percent; nationally, it is 
about 40 percent.
    If we are going to increase--you mentioned here in your 
testimony somewhere that you anticipate freight increases of 50 
to 70 percent. You said something about increasing something to 
50--well, it is estimated the Northeast will go from 49 million 
to 70 million people in 50 years. We are looking at an 80 
percent increase in freight coming into New York City and Long 
Island in the next 20 years, so we need a much-increased 
capacity for freight, as well as for passengers, and the rail 
system is overloaded. We are already getting into conflict 
between the freight and the rail.
    I just wonder if you can comment on how that is working out 
in the Philadelphia region now.
    Mr. Schweiker. Well, I mentioned our sticking points. When 
you stop to consider the immensity of the challenge that you 
have just quickly described--and I realize I do not have the 
time to elaborate--it just argues for the commitment to 
developing a comprehensive approach.
    You know, freight is going to have to come to the table; 
passengers are going to have to come to the table certainly, 
guided by those in the Federal Government. And the business 
community would like to help.
    I do not think we are going to be able to resolve it in the 
next couple of months. With this kind of growth, we are going 
to have to pay attention to it and stay with it.
    Mr. Nadler. Yes. My last question is a little further 
afield. You may or may not be able to comment on it.
    Right now, most--well, "much"; I should not say "most"--
much of the freight destined for the New York City region and 
east of the Hudson comes by rail to rail terminals in northern 
New Jersey where it gets put on trucks and comes a few miles 
into New York City and into Long Island. Norfolk Southern and 
CSX are building very, very large rail terminals near Allentown 
and Harrisburg, Pennsylvania. When they finish doing that, much 
of this traffic is going to come by rail to Allentown and 
Harrisburg and will be put on the road network there, which 
will make I-78 and I-80 parking lots for the entire State of 
the New Jersey.
    I am wondering if--I do not know the geography of 
Pennsylvania very well, but I am wondering how, if at all, this 
huge increase in truck traffic coming from Allentown and 
Harrisburg toward New York is going to affect the highway 
usage, the highway crowdedness and, therefore, the rail usage 
in the Philadelphia region.
    Mr. Schweiker. Well, first, politically, I hope most people 
see it as a nice problem to face. But I do think, as it relates 
to fluency and as to road capacity, that the need for creative 
reactions--you know, hot lanes, enhancements to the roadway 
itself--for the sake of moving traffic will be necessary; and I 
do not think one can pose those kinds of reactions or 
alternatives without being comfortable with the idea of tolling 
interstates. That, in my estimation, is just a matter of time.
    I will not go into--a Pennsylvania budget discussion is 
under way right now about Interstate 80, which runs east and 
west, but I think some of these traffic-moving alternatives--
hot lanes, congestion fees, mobility surcharges, whatever term 
you want to use--are likely to be necessary when that picture 
becomes a reality.
    Mr. Nadler. Thank you very much.
    Ms. Brown of Florida. Thank you all so very much. This 
panel has been very enlightening. I have additional questions, 
but I will just give them to you all in writing.
    Any closing remarks in less than a minute? That is what we 
have allotted. Are there any closing remarks that you want to 
make before the next panel has to come up?
    Yes, sir.
    Mr. Bohlinger. Yes, ma'am. Very quickly, Madam Chair, let 
me say this:
    From Montana's perspective, the greatest need is a national 
passenger rail policy that includes long-distance routes with 
multiyear Federal funding. It is difficult to run a business if 
we cannot find a source of financing that is not done in a 
piecemeal way. I think that until that multiyear funding 
formula is developed, Amtrak is doomed to forever struggle to 
survive to provide the basic service it does. Thank you.
    Ms. Brown of Florida. Yes.
    Governor.
    Mr. Schweiker. Thank you, Madam Chair.
    I will finish by just, again, at least confirming in the 
minds of all who have participated here today that there is a 
tremendous economic and environmental return on the fluid 
operation of Amtrak; and hopefully, with your guidance, the 
effort is applied to create the reauthorization proposal that 
is a motive and is an incentive for all of us to do this job 
together.
    For the business community of southeastern Pennsylvania and 
for northern Delaware and for southern New Jersey, we are eager 
to work hand in hand with the Committee.
    Ms. Brown of Florida. Yes, sir, and I am going to take you 
up on your invitation for the field trip.
    Mr. Schweiker. I think it will be enlightening.
    Ms. Brown of Florida. Yes, sir.
    Ms. Nekritz.
    Ms. Nekritz. Thank you, Madam Chairwoman.
    I just would like to reiterate that I think the citizenry 
is way ahead of the policymakers in this regard, on this issue; 
and we need to catch up to them and make the investment that I 
think they are demanding.
    Ms. Brown of Florida. Thank you. I have a couple more 
questions for you, and I am just going to give them to you in 
writing. Thank you very much.
    Ms. Williams.
    Ms. Williams. Also, I would like to thank the Committee for 
having me here, but I would just like to reinforce everything 
that has been said and say that we support adequate funding for 
Amtrak.
    I would like to know--you can give it to me in writing--
what I can do to get the citizens involved and getting support 
in trying to find out exactly what legislatures do support this 
and those that do not support it. That is so important to me.
    Ms. Brown of Florida. Yes, ma'am. I think you should start 
talking to your local people first.
    Thank you very much.
    [pause.]
    Ms. Brown of Florida. I want to welcome our second panel of 
witnesses.
    Our first witness is Indiana State Senator Robert Jackman, 
who chairs the Midwest Interstate Passenger Rail Commission. 
Our second witness is Mr. Frank Busalacchi----
    Mr. Busalacchi. Very good.
    Ms. Brown of Florida. --the Wisconsin Department of 
Transportation Secretary. He is also the Chair of the States 
for Passenger Rail Coalition.
    Our third witness is Commissioner Glynn, who heads the New 
York Department of Transportation. The Commissioner is also 
representing the Coalition of Northeast Governors here today.
    The one other person, finally, is Mr. Kempton, who is the 
Director of the State of California Department of 
Transportation.

   STATEMENTS OF HONORABLE ROBERT N. JACKMAN, INDIANA STATE 
     SENATOR AND CHAIR, MIDWEST INTERSTATE PASSENGER RAIL 
     COMMISSION; FRANK J. BUSALACCHI, SECRETARY, WISCONSIN 
   DEPARTMENT OF TRANSPORTATION; HONORABLE ASTRID C. GLYNN, 
 COMMISSIONER, NEW YORK DEPARTMENT OF TRANSPORTATION; AND WILL 
   KEMPTON, DIRECTOR, CALIFORNIA DEPARTMENT OF TRANSPORTATION

    Ms. Brown of Florida. Our witnesses must limit their oral 
statements to 5 minutes. However, your entire statements will 
appear in the record. I recognize Senator Jackman for his 
testimony.
    Welcome.
    Mr. Jackman. Thank you, Madam Chairwoman Brown and Members 
of the Rail Subcommittee of the House Transportation and 
Infrastructure Committee. I am honored to have the opportunity 
to address your Committee today.
    I am Indiana State Senator Robert N. Jackman, and I am 
speaking to you today as Chairman of the Midwest Interstate 
Passenger Rail Commission, an interstate compact of State 
legislators, governors and their appointees. Our commission 
advocates for the preservation and expansion of our existing 
passenger rail system.
    I believe that in addressing our Nation's growing 
transportation needs, we need a vision that integrates 
complementary methods of interstate and intrastate 
transportation, a vision that will serve us well in national 
emergencies, and a vision that is sensitive to our energy and 
environmental concerns. The development of intercity passenger 
rail will serve as a vital component of that vision.
    My written testimony contains more details about the 
Midwest plans to expand intercity passenger rail services and 
the benefits of passenger rail as an integral part of the 
transportation solutions. With that being said, I think 
intercity passenger rail development will complement other 
modes of transportation by providing a necessary middle-
distance means of travel.
    Passenger rail is significantly more energy efficient than 
commercial airlines or cars. Rails can prove to be a vital 
resource when disaster strikes, and it is crucial to managing 
traffic when other modes of transportation have been shut down. 
It also will bring great economic benefits.
    In the Midwest, we have two complementary, multi-State 
plans for improving passenger rail service--the Midwest 
Regional Rail Initiative and the Ohio Hub. These plans have the 
potential to reap tremendous economic returns in job creation 
for the region while connecting 150 communities across the 
Midwest.
    Americans are taking the trains in record numbers, and we 
have seen that there is strong passenger response when service 
is added. Fourteen States provide direct operating subsidies to 
Amtrak for increased passenger rail service, including 
Illinois, Michigan, Missouri, and Wisconsin in the Midwest.
    While ridership on Amtrak service overall has been growing, 
the rise in the number of those taking the train on shorter 
regional routes has been particularly dramatic. Over half of 
the States in the Nation are now developing or are implementing 
regional passenger and freight rail plans. Many others view the 
continuance of what passenger rail service they do have as a 
vital concern. We have seen this growth in ridership and 
service despite the fact that Amtrak has not been reauthorized 
since 2002.
    At this point, Amtrak is unable to meet the increased 
demand for more service as there are no additional train sets 
available. There has never been a better time to pass strong 
legislation that will give our current passenger rail system 
the stability it needs. We need to fund a Federal-State 
matching program to provide our States with the capital needed 
to implement passenger rail plans. The Midwest Interstate 
Passenger Rail Commission respectfully suggests the following 
considerations when drafting your legislation:
    First, to provide passenger rail with a dedicated source of 
funding similar to other modes of transportation, the Midwest 
Interstate Passenger Rail Commission recommends legislation 
that will establish the mechanism to provide States with long-
term, dedicated, matching funding on an 80/20 Federal/State 
basis. Currently, passenger rail receives less than 1 percent 
of the total transportation funding, and there is no mechanism 
for States to make the capital improvements necessary to 
implement our construction plans.
    Second, reauthorize Amtrak. The Midwest Interstate 
Passenger Rail Commission supports the provisions in the 
Passenger Rail Improvement Act, S.294, to reauthorize Amtrak 
for 6 years while requiring reforms and improvements.
    Third, we need to create with State and local input a 
comprehensive national plan for passenger rail development. 
While States have been developing regional plans, a more 
comprehensive national strategy is needed.
    Fourth, help ensure that passenger rail service can run on 
time. Federal law guarantees Amtrak preferential access to 
freight lines. This guarantee needs to be strengthened. When 
trains are not run on time, States have a difficult time 
supporting that.
    Fifth, provide incentives for biodiesel fuel usage on 
trains. Federal efforts to explore and advance the use of 
biofuels on trains are necessary. The use of biofuels on 
intercity passenger trains shows trends that up to at least 20 
percent of biodiesel can be used without a negative effect on 
the train's engines.
    Chairwoman Brown and Members of the Committee, thank you 
again for holding these hearings and for inviting me to 
testify. The Midwest Interstate Passenger Rail Commission looks 
forward to working with you to craft and pass legislation this 
year that will move our Nation's passenger rail system into the 
21st century and beyond.
    Thank you.
    Mr. Busalacchi. Chairwoman Brown, Ranking Member Shuster 
and distinguished Members of the Committee, my name is Frank 
Busalacchi. I am Secretary of the Wisconsin Department of 
Transportation and the Chair of the States for Passenger Rail 
Coalition. I appreciate this opportunity to share my 
perspective on the benefits of intercity passenger rail 
development.
    I am a strong advocate of a new multimodal transportation 
policy for our country with sufficient Federal investment in 
all of the transportation modes. Intercity passenger rail 
development is quickly losing ground. Congress must act now to 
establish a Federal funding partner, or intercity passenger 
rail may never be expanded, and the Nation may never experience 
the benefits we are discussing today.
    The public demand for fast, efficient, intercity passenger 
rail service is strong in the 100-to-400-mile corridors, where 
travelers experience highway and airport congestion, with 
speeds of up to 110 miles per hour and 6 to 10 daily round 
trips. Passenger rail service in these corridors is competitive 
with air and auto in terms of travel time, convenience and 
comfort.
    National data show that passenger rail service offers 
substantial energy benefits when compared with other modes of 
travel. A 2007 Oak Ridge National Laboratory Report indicates 
that intercity passenger rail consumes 17 percent less energy 
per passenger-mile than airlines and 20 percent less than 
automobiles. These energy savings can be significant in some 
corridors, saving millions of gallons of fuel per year. The 
time to add an intercity passenger rail component to the debate 
on energy policy has never been more critical.
    Intercity passenger rail combats urban sprawl by 
encouraging downtown development around the stations. Urban 
sprawl develops travel patterns that consume more energy than 
compact, well-planned urban development. On average, intercity 
passenger trains produce two-thirds fewer carbon dioxide 
emissions per passenger mile than do cars or trucks, half of 
the greenhouse emissions of airplanes and fewer emissions of 
other pollutants.
    Passenger rail improvements planned between Charlotte, 
North Carolina, and Washington, D.C., would provide a net 
reduction of 531,000 pounds of nitrogen oxide per year as a 
result of auto diversion to rail. Investing Federal funds in 
intercity passenger rail in support of environmental 
improvements is simply good public policy.
    An economic impact analysis of the nine-State, 3,000-mile 
Midwest Regional Rail System identified 58,000 new jobs, $1.1 
billion in increased household income and $4.9 billion in 
increased property values around 102 stations served by the 
system. The system would provide 15,200 construction-related 
jobs over 10 years.
    In a nutshell, intercity passenger rail promotes job 
development and moves people to communities to support those 
jobs. Modal redundancy should be a basic tenet of the Nation's 
homeland security policy. By providing an efficient means of 
evacuation, intercity passenger rail can help natural disasters 
from becoming human disasters. The Nation must improve its 
ability to respond to transportation emergencies. Federal 
support for the implementation of these States' regional rail 
development plans would help.
    I know the American public endorses passenger rail 
expansion. Wisconsin and Illinois provide financial assistance 
to Amtrak's Hiawatha service in the Milwaukee-Chicago Corridor. 
Last year, Amtrak's Hiawatha service carried 588,000 
passengers, an all-time record with a 48 percent increase in 
just 5 years. Without a Federal funding partner, service 
expansion in the corridor cannot be achieved.
    Other States share Wisconsin's frustration with the lack of 
Federal support. Together, they have committed hundreds of 
millions of dollars for short-term, incremental improvements 
that have increased Amtrak ridership. Thirty-five States have 
developed intercity passenger rail plans for future service. To 
address the infrastructure and equipment needs in these plans, 
it would cost as much as $12.7 billion over 6 years.
    The benefits of intercity passenger rail development which 
I have outlined today have motivated States to fund passenger 
rail service in many corridors and to plan for enhanced service 
in many additional corridors. These benefits are also the 
driving force behind the formation of the States for the 
Passenger Rail Coalition and in our desire for a Federal-State 
funding partnership to bring the State rail plans to fruition.
    Without a Federal-State partnership, the opportunity to 
address the climate change issues confronting Congress through 
enhanced intercity passenger rail will be lost. Intercity 
passenger rail must be a component of the Nation's energy, 
environmental and homeland security policies, and it must be a 
cornerstone of intermodal transportation policy in the interest 
of improving mobility and relieving highway and airway 
congestion.
    If I can leave you with one thought today, let it be this: 
Enact the Federal-State funding partnership model after the 
successful highway and airway funding programs now. Once 
enacted, initial steps will be taken to expand capacity or to 
increase network services, but as Amtrak has said, it will take 
years before the outcome of these steps can be realized on the 
ground. The Nation cannot wait.
    Thank you for the opportunity to speak with you today. I 
appreciate your attention, and I look forward to answering your 
questions.
    Ms. Glynn. Good morning. My name is Astrid Glynn, and I am 
the Commissioner of the New York State Department of 
Transportation.
    First, I would like to thank you, Chairwoman Brown, for the 
invitation to be here and also to acknowledge the leadership of 
the Committee and that of the Subcommittee, as well as 
Congressman Nadler from my State of New York. We greatly 
appreciate your activity in this area.
    Ms. Brown of Florida. In your testimony, answer his 
questions, will you? They are geared toward New York.
    Ms. Glynn. I will try, ma'am.
    My testimony will focus on the economic advantages that 
intercity passenger rail, particularly in the Northeast 
Corridor, can contribute to an integrated national 
transportation system. I will also discuss briefly what we will 
need to do to gain those benefits, specifically investments, 
collaboration and adequate stable funding.
    In recent years, growth in the United States has been 
increasingly framed by mega regions, areas that include several 
urban areas. The Northeast Corridor runs through one such mega 
region, perhaps the oldest, certainly one that has had to 
reinvent itself repeatedly.
    This region is linked by an integrated system of intercity, 
regional and commuter rail services built around the Northeast 
Corridor's spine. With nearly 1,900 train movements each day, 
that spine moves over 200 million passengers a year, including 
9 million intercity passengers. The corridor's feeder lines 
carry another 2.6 million passengers annually.
    The intercity portion of that rail system is operated and 
partially owned by Amtrak. Three examples demonstrate its 
economic benefits:
    First, the corridor helps reduce highway congestion, and it 
supplements limited airport capacity. Although New York hosts 
several major airports and well-known highways and bridges, 
there is no way we can accommodate intercity demand with those 
modes alone. Rail is, thus, an important reliever. Its 
potential as a reliever is even greater. Twenty percent of the 
total traffic at New York's three major airports now goes to 
other points in the Northeast; moving this traffic to rail 
would open capacity to serve flights from other areas.
    Second, intercity rail allows us to reinforce smaller 
communities with access to other metropolitan areas. For 
example, Albany is only 2-1/2 hours from midtown New York City 
by train, a day trip if you want to locate a business upstate 
and still have access to the financial, medical and academic 
resources of the larger metropolitan area.
    Third, intercity rail also means that remote locations are 
not inaccessible. Tourism is as important to us as it is to the 
States you heard from in the first panel, and we are 
particularly appreciative of the role that intercity passenger 
service allows us to play in the international tourist market.
    What do we need in order to seize these opportunities? 
Well, just making current services more reliable, more frequent 
and better priced would definitely help us make the most of the 
advantages that this national asset already offers to us. 
Beyond that simple and yet elusive goal, a more frequent, 
higher-speed service will provide enormous additional economic 
benefits. But to more fully realize these benefits, three 
things are of vital importance--investments, collaboration and 
stable funding.
    In terms of investments, first, we need to bring the 
Northeast Corridor to a state of good repair. A state of good 
repair is essential for efficient and effective service. It is 
a first step to reliability; it will be foundational to any 
effort to expand capacity for growth, frequency and speed.
    We look to the Federal Government to take the lead in this 
area and to remain an integral partner beyond the state of good 
repair. We understand that States will have a role, too, 
especially once the state of good repair is achieved. States 
all across the Nation have already invested billions of dollars 
in intercity passenger rail, $2.8 billion in the Northeast 
alone. We may resist the shifting of traditional Federal 
responsibilities, but we understand the benefits of 
participating in substantial system improvements and additions.
    We also need a stronger collaborative role. Any 
restructuring of Amtrak should recognize States' longstanding 
role as joint funders, owners and operators of the passenger 
rail service.
    Finally and most importantly, we need stable funding. Our 
intercity rail passenger system will always require substantial 
Federal funding. The Federal Government must be a strong and 
consistent partner in a funding structure that is more than a 
zero-sum game.
    We appreciate the fact that you are already working on 
legislation that can provide a workable framework for passenger 
rail, and we look forward to supporting that legislation and to 
working with you on it. From New York's perspective, that 
legislation should include a dedicated source of funding so 
that we can all realize our long-term visions and our policies 
for improving intercity rail at the national level.
    Thank you very much for the opportunity to testify here 
today.
    Mr. Kempton. Madam Chair, Ranking Member Shuster, my name 
is Will Kempton, and I am the Director of the California 
Department of Transportation, also known as Caltrans. I want to 
thank you for the invitation to testify before the Committee 
today on the benefits of the intercity rail.
    As the Director of Caltrans, I oversee more than 22,000 
employees. We have a $13.8 billion budget in a State highway 
system of more than 50,000 lane-miles. California is also home 
to two of the country's five largest transit systems, to the 
Nation's fifth busiest commercial airport and to two of the 
Nation's busiest ports. We are also home to the country's 
second, third and fifth busiest intercity passenger rail 
corridors.
    California's intercity passenger rail program dates back to 
1976 when the State agreed to provide financial support for an 
additional round trip of Amtrak's "San Diegan" service. In 
2006, 30 years later, more than 5 million passengers rode 
California's three State-supported intercity rail corridors. 
Let me review those for you.
    The Pacific Surfliner Corridor parallels California's coast 
from San Diego through Los Angeles and north of Santa Barbara 
and San Luis Obispo. It is the Nation's second busiest 
intercity rail corridor, and it serves approximately 2.7 
million passengers annually. Only the Northeast Corridor is a 
busier corridor.
    The Capitol Corridor connects Auburn through Sacramento and 
Oakland to San Jose. At 1.5 million riders, this route is 
Amtrak's third busiest and is the fastest growing. With 16 
round trips between Sacramento and Oakland, the Capitol 
Corridor has the same level of frequency as the New York-Boston 
segment of the Northeast Corridor.
    The San Joaquin Corridor connects the Bay Area and 
Sacramento with the cities of California's Central Valley and 
is Amtrak's fifth busiest corridor, serving 800,000 passengers 
annually. The San Joaquin route is unique because its extensive 
feeder bus network connects the train with all parts of the 
State and with Oregon and Nevada as well.
    California is second only to New York in terms of total 
Amtrak ridership. One-fifth of all Amtrak riders now come from 
California's three intercity rail corridors. Together, these 
three routes will reduce congestion on California's highway 
system by more than one-half billion passenger miles of travel 
each year.
    We are also looking at expanding our service by initiating 
new rail operations along the coast between L.A. and the San 
Francisco Bay Area and extending out to the north State and 
Reno, Nevada, as well as to Palm Springs and to the Coachella 
Valley.
    In addition to helping alleviate highway congestion, 
intercity passenger rail provides the energy and the 
environmental benefits that the other speakers have already 
addressed, and I will not repeat those.
    California's successful intercity rail program would not be 
possible without the willingness of the State's voters and its 
public officials to invest operating and capital dollars in the 
service. Since 1976, nearly $1.8 billion in State funds have 
been invested to build the system, half of that since 1990. In 
addition, another $850 million has been spent since 1976 for 
operating service.
    California is poised to invest at least another $400 
million over the next few years as part of the governor's 
strategic growth plan and the nearly $20 billion transportation 
bond measure approved by the State's voters in November of this 
past year.
    Although California has made significant investments in its 
intercity passenger rail system, the States cannot continue to 
do this alone. If we are serious about reducing our dependence 
on foreign energy supplies, enhancing the environment, 
improving mobility and strengthening the economy, a strong 
Federal partner is needed. We think the action of the 
Appropriations Committee in proposing $50 million for State 
matching grants in the Amtrak budget is a positive first step.
    The need for funding, however, is significantly greater, 
and in 2002--that is 5 years ago--AASHTO, the American 
Association of State Highway and Transportation Officials, 
identified a need for rail capital of nearly $17 billion for 
the subsequent 6 years. In California alone, there is a backlog 
of projects exceeding $600 million that could be ready to 
advertise within 18 months.
    This Committee is in a unique position to chart the course 
of that partnership. As you look at the myriad of issues 
affecting the future of intercity passenger rail in the United 
States, the California Department of Transportation encourages 
the Committee to give consideration to the following:
    Creating a multiyear Federal capital matching grant program 
similar to other transportation grant programs to encourage 
States to invest in intercity passenger rail. This program 
should not come at the expense of other programs, and it should 
be dedicated, stable and large enough to encourage State 
investment.
    We should balance capital funding between regions. We 
should count previous State investments made within the last 2 
to 5 years as part of the State's match for future capital 
funds, and we should streamline the process to apply for and to 
obtain those grants.
    We need to stabilize Amtrak, though, financially and 
organizationally to allow States to more effectively plan and 
budget for services. Do not shift costs from Amtrak to the 
States without a funded Federal-State matching program.
    Finally, treat States equitably when establishing the level 
of State contribution to Amtrak operating costs.
    That concludes my prepared remarks, Madam Chair. I will be 
happy to answer any questions.
    Ms. Brown of Florida. Thank you very much for your 
testimony.
    I guess I can ask this question because, Ms. Glynn, no 
matter where you are from, you stated in your testimony that, 
due to airport and airspace capacity, public policy 
increasingly warrants to steer passenger trips of a 200-to-500-
mile range to intercity passenger rail.
    Please tell us how we can make intercity passenger rail a 
viable option for passengers under these circumstances.
    Ms. Glynn. Madam Chair, if intercity passenger rail were 
well equipped to move into every market that had not been 
profitable for the airlines or that had surface congestion, 
intercity passenger rail would be a very busy system. We have a 
number of corridors in New York and elsewhere in the Northeast 
that are more than commuting distance and that are less than 
airline distance. If you cannot get downtown from Albany to New 
York City in 2-1/2 hours, to midtown in New York City in 2-1/2 
hours, but you can when the train is on time, that is pretty 
good.
    The first key, though, is going to be reliability. If we 
cannot achieve reliability, we will not attract passengers on a 
consistent basis. So I would respectfully suggest that, while 
we have the long-term goal of high speed, the first step of 
increasing reliability would be a tremendous improvement as 
well as increasing frequency. Those are the two short-term 
goals that we can aim for.
    Ms. Brown of Florida. When the Chinese came and testified 
before the Committee, they said that they are on time. They are 
6 seconds late, period. That is the most they have ever been 
late. So I understand what you are saying. You are saying that 
we need to have a fair system, but we need to make sure that 
people can count on it.
    Yes, ma'am.
    Ms. Glynn. If I may, in looking from 2002 to 2007, here is 
the on-time performance of just the routes in New York by 
Amtrak. Adirondack has gone from 45 percent down to about 20; 
Maple Leaf, 50 to 40; Ethan Allen, 80 to 55; Lake Shore--I hope 
this is a typo, but I am not sure it is--from 70 to 0; and 
Empire Corridor, which, fortunately, has stayed around 90 to 
80, but those are variables that we should be able to improve.
    Ms. Brown of Florida. Would anyone else like to respond to 
that question?
    Mr. Busalacchi. Well, Madam Chair, I think she is right on 
the mark. I believe that the key here is an investment that is 
going to bring the service on these trains up, and it is 
important. People are not going to ride them if they are not on 
time. You have to make them dependable, and the only way that 
this is going to happen is with a significant investment, and 
not just in the Northeast Corridor, but in any of these 
corridors.
    And I think all of the speakers have said just what I am 
saying here today, that there needs to be a significant Federal 
commitment here, just like there is on highways.
    You know, Will and I deal in highways all of the time, so I 
think we know a little bit about what we are talking about 
here. If you have the same commitment to passenger rail, you 
will get up to speed, and we will be able to provide what we 
need to provide to the American people. Right now, the way the 
situation is now, it just will not happen.
    Ms. Brown of Florida. Mr. Jackman, you have increased 
tremendously as far as your ridership is concerned.
    To what do you attribute this increase in the ridership 
itself?
    Mr. Jackman. I think people want to ride trains. They see 
that as a viable alternative to the congestion and the 
pollution and things associated with the highways.
    If I might add, 51 years ago this week on June 29th, 1956, 
Dwight Eisenhower's system on interstate and defensive highways 
was initiated. As he predicted at that time, it was going to 
change the face of America. I think it is time that we look 
back on history and try to reinvent the wheel, so to speak, 
with passenger rail to make this another change in the face of 
transportation in the United States.
    Mr. Kempton. Madam Chairwoman, our ridership on one of our 
services has increased dramatically since we improved the 
service on that corridor. The fact of the matter is we now 
currently have, as I indicated in my testimony, 16 round trips 
between the central regional area and the bay area on our 
capital corridor service. With those 32 individual trips or 
ridership on the capital corridor, service has increased by 15 
percent. That is a substantial increase over an already busy 
service.
    The problem, as the other speakers have indicated, is 
reliability, because we share those tracks with the freight 
rail lines. They own those tracks. We have provided substantial 
public investment to improve the operations and we need to 
continue that kind of capital investment, because reliability 
is a really critical factor. I am a regular user of the capital 
corridor service and we are operating at about 80 percent on 
time performance in the corridor. But when you get on a train 
that has to sit on the side waiting 20 minutes for a freight 
train to go past, it is frustrating to the people to attract 
more ridership on intercity rail services. We have to make an 
additional investment that is absolutely key.
    Ms. Brown of Florida. Mr. Shuster.
    Mr. Shuster. Thank you. You stated in your testimony that 
there will be a dollar generated in return for every dollar 
invested in high speed rail. Can you talk about how you 
calculate that number, and does it include secondary and social 
economic benefits or is it just a return on the project itself?
    Mr. Jackman. I think that takes into effect the economic 
benefit that would arise from increased businesses at the train 
stations and this type of thing.
    Mr. Shuster. Secondary social benefits, things like that 
also?
    Mr. Jackman. Right. But at the same time, you know, we have 
some statistics to prove if government would build then 
ridership could probably be maintained.
    Mr. Shuster. How about in the study, does it have an impact 
for local employment and property values, is that included in 
there also? It would seem to me there would be an impact. It 
would be I think a significant--if you look around the country 
they would have a station and improve passenger rail service. 
There are significant increases to the property values, but 
also local employment opportunities.
    Mr. Jackman. Yeah, according to the statistics in my 
testimony, would have $58,000 permanent new jobs and 5.3 
billion increase over the construction period.
    This is basically the Midwest interstate passenger rail 
initiative that uses Chicago as a hub, with 3,000 miles of high 
speed rail around the district to Detroit, Cleveland, 
Cincinnati, Louisville, St. Louis, over to Omaha, up through 
Madison, Wisconsin and ultimately to Fargo, North Dakota. That 
is where these numbers came from, sir.
    Mr. Shuster. Secretary Busalacchi. Did I get it?
    Mr. Busalacchi. We are two for two up here today.
    Ms. Brown of Florida. I like Frank better.
    Mr. Shuster. The Chairwoman says she likes Frank better. It 
is my middle name, Frank, so I second that.
    Can you give us an order of magnitude how much funding is 
required to complete all the proposed high speed rail projects 
right now that you have on the table?
    Mr. Busalacchi. Congressman, that is a real good question, 
but as you know, I sit on the National Surface Transportation 
Policy and Revenue Study Commission, and that is what we are 
working on right now. We have established a special 
Subcommittee that is going to be reporting back to the 
commission to get us those numbers. We are meeting with the 
freight rails. We have another meeting scheduled in Milwaukee 
at the end of July to start putting some of these numbers 
together.
    I can tell you this, Congressman, it is substantial, it is 
huge. And earlier one of the Congressman was in here talking 
about the safety role, what happens with that whole structure. 
And I think that is one of the things that the commission is 
grappling with. The country got into discussing dollars instead 
of talking about needs. We need to talk about needs, not just 
highway needs, but we need to talk about what we need for other 
modes, particularly intercity passenger rail.
    I think my esteemed colleagues would tell you that it is 
not cheap to do these rail initiatives. They are very, very 
costly, but at the same time if the country embarks on an 
aggressive campaign to fund these modes properly, we will 
provide a great service to the people in this country because 
gasoline is going to continue to skyrocket, we are going to 
continue to have trouble with the environment, we know that. 
Energy independence is a key issue for all of you here in this 
building.
    So we think there is a solution to all this. We think, yes. 
Is it economic in nature? I won't kid you, it is. There is no 
question about it, but at the same time I think this is a 
decision that the country has to make because the more we delay 
the worse it is going to be.
    I believe Amtrak said not too long ago, if gasoline were to 
go to $7 a gallon and there would be this mass exodus and 
people wanted to go to mass transit, we would not be ready. We 
are not ready. We are not ready 2 years from now. We need to 
get on the stick here. If we do, we can accomplish this and 
give ourselves enough time. I think a key starting point is how 
much and how long, which American people we----
    Mr. Shuster. Well----
    Mr. Busalacchi. I assure you, Congressman, that when we 
submit our report to Congress you will have an idea in 
December, Because I think we need to provide that direction to 
you. That is what the commission is supposed to do.
    Mr. Shuster. And a time frame too.
    Mr. Busalacchi. It is only first to do that.
    Mr. Shuster. One of the things I think you mentioned 
earlier in just the last statement, the importance the 
population density. If you were in the room when I originally 
said my opening statement I talked about we are going to go 
from 300 million to 400 million in about 35 years, and I think 
Governor Schweiker pointed out just in the region of 
Philadelphia there will be an increase in population by 20 
million people. You go to the major cities all across the 
country the population is going to slowly spread out from the 
population centers. Intercity rail and commuter rail--you are 
right, we are not ready for that. Not to mention the price of 
gasoline, but to move those people in Pennsylvania and the 
Northeast Corridor, 95, you can't add another two lanes to 95, 
the Beltway around Washington. They are trying to do that and 
it is extremely difficult.
    Mr. Busalacchi. We will give you a vision out 50 years, we 
will not just talk about the next highway build or the next 
transportation build, or whatever we will call it. We will give 
you a vision out 50 years because we think that is what you 
want us to do.
    Mr. Shuster. Thank you very much. Absolutely.
    Can I continue?
    Commissioner Glynn?
    Ms. Glynn. Yes.
    Mr. Shuster. There is a major proposal to build a new train 
station in New York City. I hope in August to take a look at 
it, new passenger train facility, intercity travel, the whole--
a great hub is what I understand for transportation.
    Has the State reviewed that project in New York DOT? What 
is your position on it?
    Ms. Glynn. We are actively involved in that project and are 
very pleased to be participants in it. It is indeed going to be 
a remarkable project. It is an excellent example of how even 
the most mundane building at the right location with the right 
infrastructure associated with it can turn into a signature 
site. It has of course the Farley Building, has Madison Square 
Garden, it has Penn Station, it has a tremendous grouping of 
historic buildings in the Farley, present day livelihoods in 
Penn Station, not to mention the attraction of the Garden.
    So it is, I hope, going to be a signature building, not 
only for New York but also for the intercity rail system.
    Mr. Shuster. New York DOT is fully engaged and in support 
of it?
    Ms. Glynn. We and the Governor's economic development team 
are very involved, yes.
    Mr. Shuster. And have some cash to--I know that is a tough 
thing to do in these times, but that is a critical part.
    Ms. Glynn. We agree that cash is critical.
    Mr. Shuster. Can I ask one more question?
    Ms. Brown of Florida. We are going to do another round.
    Mr. Shuster. Okay.
    Ms. Brown of Florida. I just want to follow up on that, Ms. 
Glynn. I have been there to see the system, what you all have 
developed, and it is not just the State and the community, it 
is also the project. So it is truly a partnership that is 
taking place, and I had that field trip about 3 months ago and 
toured it. I recommend that you do that.
    I have a question. One of the major debates that we have 
here in Congress is whether or not for some reason many Members 
feel that passenger rail needs to pay for itself. It is okay 
that the airline industry doesn't pay for itself or its 
security or the highways don't pay for itself. It was the 
vision for America 50 years ago, but now the vision is dead for 
many of the Members and they feel that ``oh, the operation 
should pay for itself.''
    Would you give your thoughts on whether or not this 
particular mode of transportation needs to pay for itself?
    Ms. Glynn. Frankly, Chairwoman----
    Ms. Brown of Florida. This is for everyone on the panel.
    Ms. Glynn. I do not think it is realistic to expect it to 
pay for itself. Transit doesn't pay for itself. As you say, 
airlines don't pay for themselves. If it could be done by the 
private sector, it would be done by the private sector. We are 
here because it cannot be.
    Amtrak may be technically a private corporation, but it 
requires significant involvement by the Federal and State 
governments. As part of this, one of the things the Committee 
has set for itself in its own charge is to make the entire 
transportation system of the United States in good working 
order. And I would suggest that your involvement will be very 
important to making sure that that is true of the intercity 
rail system as well as the other parts of the system.
    Mr. Kempton. I would say very few rail systems around the 
world pay for themselves. We cannot expect intercity passenger 
rail will be able to pay for its operations either. We can, 
however, set specific performance criteria, we can expect and 
demand. It should demand good performance and the best 
expenditure of the taxpayers dollars.
    To do that, we do need, as some of the other speakers in 
this panel and a previous panel indicated, you need a stable 
program. You need to plan and rely on a regular source of 
funding so that you can lay out a long-term capital plan for 
investment that is needed to make the system operate more 
efficiently, and in California's case we continue to provide 
the operating subsidies in support of our services in the 
State.
    Our recovery ratios right now are averaging about 50 
percent statewide. I think we can and should do a little bit 
better than that, but there is no way these services are going 
to be able to operate without some support.
    Mr. Busalacchi. I agree, if you price--if you did what was 
suggested, Madam Chair, you just would price yourself out of 
the market. People wouldn't ride these trains. We have to make 
it efficient, on time, and a good investment for the people 
that ride. I mean if you look on the highway side, what we have 
done with highways, that is basically a subsidy. I mean the 
Federal Government gets involved in that through the gas tax, 
but still it is something that is provided. And I think that 
needs to happen here with passenger rail. If there are people 
that are talking about passenger rail and commuter rail paying 
for themselves, that is just silliness because we all know that 
that is just not going to get us to where we need to get. What 
we need is a strong Federal partner.
    Will is right, if you look at other countries, particularly 
the European model, which is a great model, those governments 
stepped up and they put substantial dollars behind intercity 
passenger rail. They knew they were going to have to subsidize 
and continue to subsidize to this day and, you know, that is 
what we need to do.
    Ms. Brown of Florida. Mr. Jackman.
    Mr. Jackman. I think you can't look at this thing as paying 
for itself. You know, that is not going to happen. Like other 
Members here on the Committee are saying, it would have such an 
increased cost that nobody would ride it. At the same time our 
figures with the Midwest Intercity Passenger Rail Commission 
show that ridership would support it. I think that is being 
said.
    I am back to how I got interested in this whole thing about 
intercity passenger rail because I went to a conference about 6 
years ago that said we can't lay asphalt and pour concrete fast 
enough to keep up with the increased need to move people. This 
is going to be an efficient mechanism to move those people 
because of the increase in the population.
    If I could just say a couple of things and take off my hat 
at the Midwest Interstate Passenger Rail Commission and as the 
State senator for Indiana, we funded our transportation 
construction needs for the next 10 years with a public-private 
partnership 2 years ago in the State of Indiana. Now, I am not 
saying a public-private partnership for the whole intercity 
passenger rail system would work. But I do know there is a pile 
of money out there that could be used for certain things, such 
as the stations and certain segments of this system. It is 
going to have to happen, it is going to have to happen to move 
the people.
    Thank you.
    Ms. Brown of Florida. Mr. Shuster.
    Mr. Shuster. Thank you. Mr. Kempton, Amtrakis no longer 
operating the Metrolink. My understanding is you put it out to 
a private company. Can you talk a little bit about the success, 
positive, negative, of what is happening there and your review 
on the situation in general?
    Mr. Kempton. Currently, Mr. Shuster, it is going quite 
well. We have employed a private operator in a couple of 
different rail services.
    Mr. Shuster. Who is that?
    Mr. Kempton. Herzog. They are involved in the Metrolink 
service, which is a commuter rail service, and the initial 
feedback is very positive. We think the competition is very 
healthy in the industry. Obviously we encourage Amtrak's bids 
on service throughout the State. If they can in fact provide 
that service reliably and cost effectively, we have no problem 
with engaging Amtrak in that service. Amtrak carries with it 
some benefits on the intercity rail service in terms of their 
ability to underwrite liability that other operators cannot do. 
And so far intercity rail service Amtrak is our operator.
    However, there are some ancillary services like the food 
service on the trains and some other things that we are totally 
willing to provide that to competition because we might be able 
to bring in a good service at a better price and a more 
reliable level of service.
    Mr. Shuster. It has been positive?
    Mr. Kempton. Yes.
    Mr. Shuster. When you say quite well, service, passengers 
are happy, trains are running on time?
    Mr. Kempton. Correct. We don't oversee that. That is on the 
Metrolink commuter service. That is a local service run by the 
Southern California Regional Rail Authority. But we certainly 
monitor that activity, and reports I had back from Metrolink 
are very positive.
    Mr. Shuster. Do you have the financial picture; is it 
costing less to the public entity that is paying for it or 
subsidizing it?
    Mr. Kempton. It was a competitive bid situation, it was a 
cost savings process and again the proof is in the operation 
and so far, so good.
    Mr. Shuster. Thank you very much. That is all the questions 
I have.
    Ms. Brown of Florida. In closing, I want to thank you all 
for your testimony and I want to give you what we call around 
here 1-minutes to close, but I was just sitting here thinking 
and, as I said earlier, we spend $9 billion a month in Iraq, 28 
million people, what in the world would happen if we spent $9 
billion in this country on passenger rail for the people that 
actually write the checks?
    Mr. Jackman, your 1-minute.
    Mr. Jackman. Thank you very much, Madam Chairwoman Brown. 
It has been my pleasure to be here today and we have had a lot 
of discussion, I think a lot of positive discussion, but really 
what it boils down to is we have to have a long-term commitment 
from the Federal Government, along with the States, that we are 
going to get this thing done. It is my vision if we look back 
on this thing in 50 years that this Committee will spark the 
development of another national interstate system that has 
changed the face of America for the better, the national 
interstate passenger rail system.
    I thank you very much for your time.
    Ms. Brown of Florida. Mr. Jackman, that is my goal.
    What kind of partnerships do you think the State and the 
Federal Government should have? Should it be like a carrot as 
far as us putting up a grants program that the States can buy 
in? I listened to the Lieutenant Governor earlier. Of course 
some States don't have the same amount of money that other 
States might have to partner. That is a follow-up to the 
question.
    Mr. Jackman. I think if you look back at the history with 
the interstate system developed by Eisenhower, you are on an 
80/20 basis; the Feds put up 80 percent and the States put up 
20. I think that has worked well. Let's go back with history 
and try to do that again.
    Ms. Brown of Florida. Okay.
    Mr. Busalacchi. Madam Chair, Congressman Shuster, I want to 
thank you for having me back here again. I appreciate your 
leadership. We need you, we really do. I think you understand 
this issue as well as any two people in the House that there 
are. And I just want you to know from my standpoint anything 
that our coalition can do to provide you with information or 
testimony at any time, please call on us. But thank you.
    Ms. Brown of Florida. Thank you.
    Ms. Glynn. Madam Chair, Congressman Shuster, I want to 
thank you for first of all holding these hearings. It is a 
tremendous sign, an encouraging sign that Congress will help 
lead us to a new and a better rail system. I also want to thank 
you very much for giving me the opportunity to be here today.
    Thank you.
    Mr. Kempton. Madam Chair, Ranking Member Shuster, thank you 
for the opportunity to speak before you today. I wanted to 
emphasize that stabilizing the program both financially and 
organizationally is key. We need to create that multi-year 
federal capital matching grant program that the other speakers 
have referred to.
    I have to say that if you look at the interstate, perhaps 
the most significant public work in the history of the world 
that was accomplished between the Federal Government and the 
State, we need to apply the same approach to intercity rail 
service, and we look forward to working with you as attributing 
partner in that effort.
    Thank you.
    Ms. Brown of Florida. Thank you very much. We are going to 
take a 5-minute break, if that is okay with you, Mr. Shuster. 
Mr. Morning is here on another issue, on kidney research and 
you know in Congress we have to multi-task. So we are going to 
take a 5-minute break. Thank you.
    [Recess.]
    Ms. Brown of Florida. Thank you very much, last panel, 
Panel III. I would like to welcome the third and last panel. 
Our first witness is Mr. Ross Capon, who served as the 
Executive Director of the National Association of Railroad 
Passengers, welcome.
    Our next witness is Harriet Parcells, who is the Executive 
Director of the National Passenger Rail Coalition.
    Our third witness is Larry Blow, representing the U.S. 
Maglev Coalition.
    The fourth witness is Mr. Peppard, who is the 
Transportation Policy Coordinator for the environmental 
advocacy organization, Friends of the Earth.
    Our final witness today is Kevin Brubaker, who is the 
Project Manager of the Midwest High Speed Rail Network Project 
for the Environmental Law and Policy Center.
    Let me remind the witnesses that under Committee rules they 
must limit their oral statements to 5 minutes, but the entire 
statement will appear in the record. I thank you and recognize 
Mr. Capon for his testimony.

     TESTIMONY OF ROSS CAPON, EXECUTIVE DIRECTOR, NATIONAL 
ASSOCIATION OF RAILROAD PASSENGERS; HARRIET PARCELLS, EXECUTIVE 
DIRECTOR, AMERICAN PASSENGER RAIL COALITION; LARRY BLOW, SENIOR 
   ASSOCIATE, UNITED STATES MAGLEV COALITION; COLIN PEPPARD, 
 TRANSPORTATION POLICY COORDINATOR, FRIENDS OF THE EARTH; AND 
   KEVIN BRUBAKER, PROJECT MANAGER, MIDWEST HIGH SPEED RAIL 
      NETWORK PROJECT, ENVIRONMENTAL LAW AND POLICY CENTER

    Mr. Capon. Thank you very much, Madam Chairman.
    I will do my best not to repeat anything you have heard 
before this morning. The picture there is Governor--Lieutenant 
Governor's passengers. That is actually Minot, North Dakota. 
That is the Empire Builder.
    On our next slide we have what we think it takes and on the 
fifth point, railroad network with adequate capacity, I agree 
with Mr. Shuster's comments earlier about if we are going to 
run these trains on time we have got to find more money to 
invest in track capacity.
    As I see it, there are three huge obstacles to that. The 
first one is the OMB types from whichever party will say I 
can't afford it. The second is some people will say why should 
we invest in the freight railroads when you are profitable 
anyway. The third is the railroads are opposed to any kind of 
government interference that would affect the competitive 
relationship among the different railroads.
    I think I have got good answers for the first and second 
problems and probably you do, too. I don't have a great answer 
for number three. That is the big conundrum.
    It is interesting to note that the Federal Railroad 
Administrator, Mr. Boardman, when he was a New York State 
Commissioner, he oversaw the Bottom Line Freight Rail Report 
that AASHTO produced. I believe they said we needed something 
like $35 billion invested in freight rail above what the 
private sector is likely to provide over the next 20 years. And 
that is a very tall order, but we are going to have to figure 
out how to do it.
    I do need to point out, on the particular example of the 
California Zephyr never being on time, there is one other 
reason that crops up so often, and that is in this case that 
the Union Pacific fell way behind on their tie program. There 
are miles and miles of 40 mile an hour slow orders across 
Nevada because of that, and I believe Amtrak and Union Pacific 
now have an agreement where they lengthen the schedule of the 
train by 3 hours, but they have specific time lines for when 
the time is going to be taken back out of the schedule as those 
ties are repaired and the Union Pacific gets back on its feet. 
They just implemented that schedule I think about 2 weeks ago.
    My President, George Chilson, wanted me to make sure in 
discussing choice for Americans, which one of the major 
benefits of passenger rail is, that I refer to that great quote 
from the Russian immigrants who were extolling the virtues of 
how much choice Americans had, but said there is no freedom in 
America without an automobile.
    Part of the message here of course is that we need a 
transportation system that works for people without 
automobiles, whether they are teenagers or whether they are 
elderly people or whether they are just you and me who don't 
want to drive. Avoiding stress and congestion on other modes, 
you have heard about that.
    The environmental impact, I have my little unit table on 
page 2 straight out of the Oakridge National Laboratory report 
for Department of Energy that shows the energy intensity. This 
is a measure of thermal units per passenger-mile, where the 
lowest number wins, and that isAmtrak.
    On the next frame I have restated some of what the 
Lieutenant Governor said about why the longest of trains are 
important. And on the subject of intercity bus, I would note 
that on page 6 of my testimony, of my written testimony, I 
quote a 1993 statement by an American Bus Association official 
that says, we don't need trains between Boston and Portland, 
Maine, we have buses. It turns out today the Amtrak Downeaster 
is a tremendous success and the bus ridership is up because 
they work together.
    In the next frame we show the national system. All those 
States in black are States where the only train is the long 
distance train. So no service in the black States.
    And in our next frame we show our vision, our 40-year 
vision. We don't have a 50-year vision, but we have a 40-year 
vision of what the national system should look like.
    I will stop there and my 5 minutes are up. Thank you very 
much for your time.
    Ms. Brown of Florida. We will have some follow-up 
questions.
    Ms. Parcells. Madam Chairwoman Brown and Ranking Member 
Shuster, thank you very much for the opportunity to testify 
here this morning on the benefits of investments in passenger 
rail. My name is Harriet Parcells and I am the Executive 
Director of the American Passenger Rail Coalition.
    First, I would like to say Amtrak has had great success, 
ridership has steadily increased over the past 4 years, and so 
far it is up over 5 percent this fiscal year over the same 
period last year. Amtrak management has reduced operating costs 
and management and workers together have maintained an 
outstanding safety record. These accomplishments are 
particularly noteworthy given that Amtrak has been given barely 
enough funding to meet its capital and operating needs each 
year for many years.
    By failing to provide the funding that would greatly 
enhance U.S. passenger rail service, especially in congested 
corridors, the U.S. is missing out on enormous social, economic 
and environmental savings. These savings would make the country 
more productive and more competitive in the global work 
marketplace.
    A study for the World Bank showed that cities that have the 
most significant sustainable transportation systems are the 
least costly to operate and spend the least amount of their 
urban wealth on transportation. And they show that the most 
rail oriented cities have the lowest transportation costs. 
Investments in intercity passenger rail routes that connect 
cities to one another and refocus development back into urban 
downtown are an integral part of building more sustainable 
cities.
    The costs of continuing to short-change passenger rail are 
mounting, and I would just like to quickly highlight four areas 
where we would have great benefits from investments in rail.
    One, highway and airport congestion relief. Highway 
congestion costs the Nation $63 billion annually, and a total 
of 2.3 billion gallons of gasoline are wasted every year 
sitting on congested roadways.
    The investments that we make in rail benefit not only those 
riding the trains, but those on the highways or traveling by 
air because you divert a significant number of trips from those 
roads and airways. Over 12 million passengers ride the trains 
on the Northeast Corridor. Without this vital transportation 
service, the Northeast region's productivity would suffer, and 
the cost to expand runways and highways--where this is even a 
practical option--would be far greater than the cost of the 
rail investments.
    Regions like the Southeast are projected to have tremendous 
population growth. As you know, Florida is projected to have a 
population increase of over 200 percent over the next 40 years, 
North Carolina and South Carolina projected to grow by 71 and 
62 percent, and other States in the Southeast region will 
experience similar growth. Business leaders and government 
leaders recognize investments in rail are essential to this 
region's ability to remain productive and competitive.
    Second are economic benefits. Public investments in 
intercity passenger rail reduce trip travel times and create 
connections between cities that open new business 
opportunities, generate jobs, tax revenues and increase 
property values. The investments in rail will also bring a 
renaissance in the U.S. Railroad supply industry, and this will 
bring new jobs and tax revenues for cities and States around 
the country.
    Third are energy benefits. The transportation sector of the 
economy accounts for about two-thirds of the petroleum used in 
the United States. U.S. dependence on imported oil has now 
grown to 66 percent of our daily supply; we import about 13.7 
million barrels of oil per day. While other sectors of the 
economy have greatly reduced their dependence on petroleum, the 
transportation sector has room for substantial improvement. 
Last year we spent $300 billion on imported oil. That was 
triple from 5 years ago.
    Travel by rail is highly energy efficient, gasoline prices 
of $3.17 or more per gallon are up over 26 percent since last 
year and consumers are feeling the pinch. If fast, attractive, 
intercity passenger rail service was offered, especially in 
metropolitan corridors, many more citizens would leave their 
cars behind and try rail.
    There are also great benefits. Energy efficiency will 
produce benefits in emissions and help us with global warming.
    I would like to quickly summarize with policy 
recommendations that we hope the Committee will consider as 
they put together their legislation. One is to provide strong 
and stable capital and operating funding for Amtrak, including 
funding to bring the Northeast Corridor to a state of good 
repair.
    Two, establish a Federal-State partnership for capital 
investments in rail corridors.
    Three, include a provision to create a next generation 
corridor train equipment pool.
    Four, although tax measures are outside the jurisdiction of 
this Committee, we urge you to work with the Ways and Means 
Committee on creative ways to come up with the substantial 
capital funding that is needed for rail.
    We thank you for your leadership and believe with your 
leadership and vision Americans can have the kind of 
transportation system they see in Europe, and they want to have 
here.
    Thank you.
    Ms. Brown of Florida. Mr. Blow.
    Mr. Blow. Thank you, Madam Chair, Congressman Shuster. I am 
Larry Blow. I represent a company that has been in the field of 
high speed transportation now for about 20 years.
    On the next slide you will see I have an outline where we 
are going to talk about four or five benefits that will accrue 
to any area that incorporates an especially a high speed train.
    On the next slide you will see that in Commonwealth we are 
supporting three contracts around the country now. These are 
feasibility studies or environmental impact statements in three 
areas of the country between Atlanta and Chattanooga, from 
Chattanooga to Nashville and the Baltimore-Washington project, 
and the local here is going through their final EIS.
    On the next slide we talk about the U.S. Maglev Coalition, 
which is the group that we have attached ourselves to which is 
promoting the use and policies for implementing high speed 
maglev around the country.
    The next item you will see the coalition members that 
include some of the most well-known engineering consulting 
firms in the country, Parsons Brinkerhoff, Arcadis, KCI. We 
have Central Japan Railway. That is the developer and 
implementer of a rail system in Japan as well as the high speed 
maglev machine.
    We listed five. I will talk about each one of them in 
sequence. The maglev is an environmentally friendly system. 
Even though to some people it is the equivalent of a moon shot 
it does exist in commercial service, and we see the following 
environmental benefits that could be expected on the next 
slide, please, especially in the areas of noise vibration where 
a maglev system is typically 10, 15 percent quieter at every 
speed than any high speed rail system in the world. 
Environmental benefits also accrue in terms of electro-magnetic 
fields where the commercial versions of maglev have electro-
magnetic fields that are on the order of consumer electronics 
and products like televisions and hair dryers. So they pose no 
threat to health at all.
    One area that we see is the use of elevated guideways. They 
run so fast you prefer they be on elevated guideways. This can 
be very gentle to a landscape. They can also allow things to 
happen underneath the guideway that were happening before, such 
as farming or commercial activity.
    On the next slide we talk about energy efficiency. Maglev 
is a different design from scratch. It is anywhere from 25 to 
35 percent more efficient. We think that can be attributed to 
the technology, but we also look ahead as to future 
characteristics.
    Next slide you see high performance. This is where a maglev 
system is known to be superior, both in speed, acceleration and 
eventually in trip times. We have a matrix of performance 
characteristics for assistance that people know on the next 
slide where we look at intercity high speed rail in the lower 
left and up towards the right. On the upper right and upper 
left you will see the Siemens version of the magnetic 
limitation. The acceleration rates and deceleration rates and 
high speeds of maglev make it appropriate as a high speed 
shuttle that is currently being used in Shanghai in commercial 
service.
    In more routine operations we see maglev being an 
addition--on the next slide. In terms of trip time between 
Baltimore and Washington we can save time going from Union 
Station to downtown Baltimore by about a third of the time 
compared to Acela because of the way the system works in normal 
alignments.
    You will see how we can collocate a maglev machine in the 
same right of way with an Acela train going between Baltimore 
and Washington, D.C. You don't see it on this slide, but on the 
next slide you see where the alignment is wide enough and the 
system is fast and compact enough to be in the same alignment.
    On the next slide we talk about cost comparison. Many 
people think maglev is a very expensive system. We look at it 
when it is properly designed, when the guideways are in the 
right position and when it can be used in terms of the system 
performance, when it can be used to its best effect. Maglev in 
capital cost is no more than 10 or so percent expensive than a 
high speed rail system.
    The next two slides, economic impacts had been looked at 
very directly in Baltimore-Washington. A private firm looked at 
and saw the following kinds of benefits, annual savings and 
congestion relief, energy consumption of a trillion BCUs a 
year, removing almost 700 tons of environmental pollution, 
lessening our dependence on foreign oil.
    The next slide in the regional area you can have thousands 
of jobs, you can earn a billion plus in earnings and 3-1/2 
billion in sales tax and local taxes.
    The last slide talks about safety. Maglev is supposedly a 
very safety conscious system designed from scratch for safety. 
Even though there was a horrible accident last September, the 
technology is supposedly not to blame, it was a human error. We 
think the basic design features of maglev, both the Japanese 
and German systems, are very safe.
    Lastly, Commonwealth Research continues to support the 
proponents of ground transportation systems around the country.
    Mr. Peppard. Good morning, Chairman Brown and Ranking 
Member Shuster, Members of the Subcommittee. Thank you for the 
opportunity to testify here today on the benefits of passenger 
rail. My name is Colin Peppard, and I am with Friends of the 
Earth, which is an environmental advocacy organization, funded 
in 1969 in the United States. We are part of Friends of the 
Earth International, which is the world's largest federation as 
well.
    I am here to talk about the benefits of passenger rail with 
respect to global warming and the climate, because the 
transportation sector in the United States is an enormous 
source of global warming. Currently nearly a third of U.S. 
Carbon dioxide missions, which are the primary cause of global 
warming, originate from the transportation sector. Cars and 
trucks and other vehicles account for about 80 percent of that 
transportation-based CO2.
    While policies come before Congress to improve the 
efficiency of these cars and trucks and to fill them with 
sustainably produced biofuels will certainly help to reduce 
this impact, these policies only take us part of the way to the 
CO2 reductions that are needed to stabilize our climate.
    Unfortunately, since U.S. transportation policy 
overwhelmingly favors highways and road projects, the total 
number of miles that Americans are forecast to drive each year 
is going to increase between 50 and 60 percent between now and 
2025. At this rate reductions in CO2 from even the most 
aggressive proposed fuel efficiency standards would be outpaced 
by growth in overall automobile usage.
    With that in mind, to fully address global warming we must 
pair these increases in fuel efficiency in biofuel use with 
development of alternatives to the able to help Americans 
reduce the amount they drive each day. At the local level this 
means things like transit, light rail, commuter rail and bus 
service. But for longer distance intercity travel passenger 
rail represents an energy efficient option that can help reduce 
C02 emission fairly substantially.
    The type of trips are intercity trips more than 50 miles 
one way. These make up a significant portion of travel in the 
U.S., resulting in a large annual amount of CO2 emissions. In 
2001 Americans produced about 400 million metric tons of CO2 by 
taking these intercity trips. This is equivalent to the annual 
CO2 emissions from about 130 medium sized power plants.
    Passenger trains offer a more energy efficient option that 
emits less C02 than both automobile and air travel. My 
colleagues today have spoken about the efficiency of passenger 
rail, so I won't repeat that.
    Beyond just their general efficiency, passenger trains 
offer other advantages. First, some colleagues touched on the 
ability of passenger trains to incorporate biodiesel, a fuel 
that can further reduce the CO2 emission by as much as 78 
percent of our petroleum diesel. The trains running on even a 
10 percent biodiesel blend, running one full Amtrak train would 
be the equivalent reduction of taking 450 to 600 cars off the 
road. Further, electrified trains such as Amtrak's Acela 
express is also very efficient and more efficient than 
petroleum diesel trains. As renewable energy such as solar and 
wind in the U.S. Becomes a larger part of the electricity mix, 
the C02 that passenger trains produced will continue to fall.
    Although passenger metro compares favorably to auto and air 
travel, it is the 50 to 500-mile interstate corridors that 
offer the most potential. These trains carry more passengers 
per train and have seen the most growth over the past several 
years. They also hold the greatest potential for new growth of 
faster, better and more frequent services.This is where the 
most potential for CO2 reduction is since the car trips this 
service would replace would be more frequent, and the short air 
trips this service would replace are the most fuel inefficient. 
These corridors also have a great potential of low biocarbon 
fuel use.
    A few policy recommendations we urge you to consider have 
been advanced before. Amtrak has the funding needed to maintain 
its current service while investing in repairs and improvements 
an expansions. Friends of the Earth supports current efforts to 
reorganize Amtrak on a significant multi-year basis. 
Legislation currently under consideration also provides long 
overdue reforms that will improve Amtrak's service and increase 
its reach.
    Financial support for States to develop and expand rail 
service, such as tax credit bonding measures, can foster strong 
partnerships, other measures that would increase the 
environmental benefits of Amtrak and passenger rail by Federal 
investments and provisions to encourage the use of biodiesel 
fuels.
    In closing, Americans are wedded to their cars and don't 
want to take passenger rail or transit. Some say this is untrue 
and that Americans are demanding alternatives more than ever 
and have shown they will change their transportation choices 
when both incentives and solid alternatives exist.
    In 2005, amidst rising gas prices, Amtrak and numerous 
transit systems around the country experienced record levels of 
ridership. In that same year Americans drove less per capita 
for the first time in 25 years. The success around the world 
shows us that if a good product is offered in the U.S. 
ridership will be high. With strong State and Federal support 
we can develop a system of high speed, energy efficient 
passenger rail service that can reduce CO2 emissions to help us 
meet the challenges posed by global warming.
    Thank you, and I look forward to the opportunity to answer 
your questions.
    Mr. Brubaker. Madam Chairwoman, Committee Members, thank 
you very much for allowing me the opportunity to testify. I 
have Kevin Brubaker, with the Environmental Law and Policy 
Center of the Midwest.
    ELPC works throughout the Midwest under the belief that 
environmental protection and economic development can be 
achieved together. Our work exemplifies this belief. It is good 
for passengers, the community and the environment.
    Representative Nekritz told you the exciting story about 
Illinois' ridership growth in the last year. Let me briefly 
provide background of what went into that.
    Last year our organization worked with a coalition that 
included organized labor, 12 university presidents, 32 Members 
of Congress and 300 local elected officials in calling for 
better rail service. University presidents went to Springfield 
to explain to legislators how leaving cars at home while 
providing faculty convenient access to the cultural amenities 
of Chicago. Chambers of Commerce testified about job creation 
through better transportation services.
    The general Assembly responded and the larger growth has 
been phenomenal, 133 percent ridership growth in 5 months from 
Chicago to St. Louis corridor. That ridership explosion is 
leading to some exciting new things.
    In response to this growth, the communities without rail 
service is starting to demand it. Amtrak is working actively to 
investigate new rail service to Rockford, Peoria, Dubuque, Iowa 
City, Des Moines and Madison.
    In the broader region, nine State Departments of 
Transportation are working together on a 3,000-mile hub network 
radiating out from Chicago to every municipality in the region. 
Add to that the Ohio hub system with another 800 miles of track 
to connect the Midwest system to the Northeast. We are starting 
to see a potential for a seamless system that produced $32 
billion of benefits to users in communities. Those benefits 
translate directly into the communities and jobs, and so forth, 
$2 billion of additional household income, $8 billion in joint 
development potential and 75,000 permanent new jobs.
    From our perspective the environmental benefits are 
particularly important. Where opportunities to expand rail are 
greatest, so are the potential savings in global warming 
benefits.
    I would politely disagree with some of my colleagues up 
here. I think they have understated the global warming benefits 
of rail in that they are looking at just the averages of a 
national system currently. When you start to drill down to 
actual corridors, the savings are far more significant. For 
example, the approved Environmental Impact Statement for 110-
mile an hour service between Chicago and St. Louis concludes 
the trains would be three times as energy efficient as cars and 
six times as energy efficient as planes.
    In conclusion, let me offer three recommendations, some of 
which you already heard. As the Lieutenant Governor offered 
earlier, we really do need a healthy continued Amtrak with 
long-term secured funding. Frankly, the Illinois success story 
you heard about today probably would have happened several 
years earlier had it not been for the fear that Amtrak wouldn't 
be around. Nobody wanted to partner with a bankrupt railroad.
    Amtrak is a remarkably good investment in public dollars 
for public benefit with a better recovery ratio than virtually 
every transit in the United States. I think it is interesting 
that the Metro regional rail system in Chicago is a national 
model of success with about 52 percent recovery ratio, and some 
describe Amtrak with a 55 percent recovery ratio as somehow a 
failure.
    Second, we need more trains. You heard about the exciting 
potential from me and others, but the downside is we have used 
up all Amtrak's rolling stock, we can't expand further without 
more trains. States can't solve this particular problem alone. 
New equipment can't be purchased off the shelf but needs to be 
designed and built from scratch, so Federal leadership is 
really necessary in this arena.
    Third, States need a Federal partner to expand and improve 
rail service. Demonstrating a willingness to invest, Wisconsin 
is rebuilding three railroad stations and has purchased track 
between Milwaukee and Madison. Illinois is close to $80 million 
in capital improvements, particularly on the Chicago-St. Louis 
corridor, and an active partner in developing high speed rail 
between Chicago and Detroit.
    They can't do it alone. Under the current system the 
Federal Government is paying 80 percent of the cost of 
highways, bridges and even bike paths, but nothing towards 
investing in rail. Passenger rail investments need to be five 
times as good as highway investments in order to justify that 
funding. Clearly, we need to level the playing field so 
rational investments are made in the most cost effective 
transportation choices.
    Thank you very much.
    Ms. Brown of Florida. Thank you very much. Do you want to 
start?
    Mr. Shuster. Sure. Thank you.
    In light of full disclosure, Mr. Capon, do you still 
receive money from Amtrak and what percentage of your budget 
comes from Amtrak?
    Mr. Capon. We have a contract to provide administrative 
support to Amtrak's advisory committee. I believe the statement 
I filed shows that we bill about $35,000 a year to Amtrak. Most 
of that is direct reimbursement for expenses. The overhead that 
we bill is about $9,000. Our budget this year will be a little 
over a billion dollars.
    Mr. Shuster. Your budget was----
    Mr. Capon. A little over a million dollars, excuse me.
    Mr. Shuster. I just wanted to get that out there. Some 
people need to know what role Amtrak plays in your advocacy.
    You talked about choice, giving people choice. I am one who 
believes that people do have a choice, and up to now people 
have overwhelmingly chosen to drive their automobiles and I 
think they will continue to do that in huge numbers. I think 95 
percent of the American people drive their car, and I think 
that that will continue to be a significant portion of how 
people tend to travel intercity.
    In saying that, I also believe as the population continues 
to expand we need to look at intercity travel and invest in 
that, but giving people choices. What it comes down, to people 
are going to always choose if the cost is reasonable, if the 
quality of services is good, and the flexibility--Governor 
Schweiker was able to go back and forth to Philadelphia, 
because he gets flexibility when he leaves. When I drive to 
rural Pennsylvania, I have no choice, there is a limited 
choice.
    I think I can hear remarks on your thoughts. Amtrak pays a 
lower access fee to the freight lines than regular commercial 
customers, and Amtrak has to pay their fair share. If the 
freight rails pay the money to reinvest in the improvement in 
infrastructure, what are your thoughts on Amtrak's contribution 
to the usage of those tracks?
    Mr. Capon. Well, first of all, I agree with your statement 
about people choosing the auto, but I think there is an awful 
lot of people choosing the automobile when public policy has 
effectively given them no choice, and it is up to the public 
policy makers to change that situation. That is even true in 
the Northeast Corridor where Amtrak's so-called regional 
trains, the conventional trains, are significantly overpriced.
    I watched a train this morning leave Washington at about 
8:15 going to New York, five cars. That would be laughed at in 
Europe for a train serving that market to be that small. That 
is what you get when you have high fares.
    Mr. Shuster. That is pretty vague. What is an awful lot? I 
go back to my original statement. If we certainly need to 
improve intercity rail, what is an awful lot? Do you think that 
some day there will be 50 percent of the people? I don't know 
what the figure is in Europe. It is very high, but part of the 
reason it is very high in Europe is they are taxed to death 
over there. So it is a disincentive for them not to use their 
cars. So what is an awful lot in your view?
    Mr. Capon. If the market share for passenger rail today is 
1 percent, if in my lifetime it got to 10 or 20 percent, that 
would be a dramatic, very dramatic increase in absolute terms. 
I think the pricing is going to change too. The Washington Post 
today, and some economic conservatives have been beating the 
drums for a long time for a carbon tax, and if that gets 
implemented that will benefit freight and passenger rail.
    You asked me a question about what Amtrak pays for access 
on the tracks. First of all, for any new service, that is 
service that does not exist today, it is well established that 
the railroads that own the tracks are going to be properly 
compensated for the additional infrastructure that is required 
to accommodate that additional intercity passenger train. For 
passenger trains that exist today or for the ones that were 
grandfathered in 1971, there are a certain number of trains 
that exist today that have already had that investment in 
infrastructure to accommodate them.
    There was a deal cut in 1970 where there was a decision 
made to relieve the private railroads of their passenger 
deficit. The deal was that Amtrak would get the right to 
operate on those tracks at what is called an incremental cost 
basis. And since then Amtrak has negotiated incentive 
agreements with almost all the railroads under which Amtrak 
pays additional fees when the on-time performance is adequate.
    I would argue that there are a lot of benefits that Amtrak 
bring to the freight railroads. An awful lot of great crossings 
have been closed because State programs primarily motivated by 
passenger service were implemented. The so-called sealed 
corridor in North Carolina is the most dramatic example. 
Florida, California, other States have done a lot of work on 
that front. The line between Sacramento and Oakland is double 
tracked because Caltrans primarily because of the passenger 
service replaced the single track segment that existed, the 
Yolo Causeway west of Sacramento.
    Mr. Capon. So I would argue that if you look at the package 
as a whole, that Amtrak is a plus for the railroads. As David 
Gunn used to say, the canary in the coal mine is the reason 
that a lot of people are even aware that we have an 
infrastructure investment project required out there that 
dwarfs anything that is related to Amtrak.
    Ms. Brown of Florida. Thank you. I think sometimes that 
perhaps Mr. Oberstar needs to put in writing the history of how 
we got to where we are in this country with passenger rail and 
freight rail. This was a public system initially. And how the 
freight rail wanted to be alleviated of the passenger rail 
service and thus the part that you told us about. But the point 
is some of the deals that was cut was to the detriment, in my 
opinion some of them as far as Amtrak is concerned, as far as 
accidents and various things and on-time service. And so we are 
where we are. And the point is for the last 6 years we have 
been struggling to keep Amtrak afloat, you know, with zero 
funding, unheard of.
    And when you travel to Europe, which the Committee went to 
Europe less than a month ago, and we flew into Brussels and we 
went from Brussels on the train to downtown Paris, over 200 
miles in less than 1 hour and 15 minutes, you get that on-time 
service. And the question is how are we going to move forward 
in this country and how we can move our Congress people to 
catch up with people, because the people understand. I mean if 
you go to one of my areas, Orlando, Sanford, the Interstate has 
eight lanes, and basically another lane won't help us. We have 
got to figure out how to get people out of those cars and onto 
passenger rail.
    If people that come into the main international airport, 
they come in, they are so confused, they go outside, jump in a 
cab and say Orlando. They are used to doing that in other 
countries. How can we move our country forward? How can we hook 
us up so that we will be ready for the future? When the gas 
prices are $3 a gallon, we think it is terrible, but they are 
going up, and eventually they will go up. And people just 
cannot afford, everybody, to be running around in a car with 
one person in that car. I mean it is just not going to work.
    If you go to other countries, climate change is the number 
one topic. We are behind. And so how can you--or what would you 
recommend is the ideal world, how does passenger rail fit into 
the American transportation system? What system of passenger 
rail would be available for the American consumer? I mean 
clearly we need a different kind of leadership in Washington. 
Why don't you respond to that?
    Mr. Capon. I would just make a couple of quick points. 
Number one is, as we all know----
    Ms. Brown of Florida. And are you a paid responder? I mean 
we invited you to come here. You come here to respond. I mean, 
am I accurate, no one pays me. We are looking at what is 
important for the future of this country.
    Mr. Capon. Right, right. The one part of the 
administration's budget that everyone I think agrees to is that 
it is time for a Federal match so that States investing in 
passenger rail, there will be a Federal match for them. Now, of 
course, as you know, to do it they took it out of Amtrak's hide 
and they went from 900 to $800 million. But the concept, if we 
can figure out how to do it without taking it out of Amtrak's 
hide, because Amtrak is the foundation on which all the State 
programs rest, that is important. You heard Mr. Kempton talk 
about how quickly you could go through that amount of money.
    What we need is a Federal funding level that encourages 
States to invest in passenger rail so that you see investments 
in places other than California, where it happened because the 
citizens voted essentially to ram it down Caltrans' throat in 
1990, $2 billion of money that they didn't ask for. And now 
everyone is proud of the great success story. And Kevin can 
talk about being heroes in Illinois where there was no Federal 
match again. So that is a big issue.
    Number two is that I haven't mentioned, I don't think 
anyone has mentioned, in Europe it is second nature that there 
is a good connection between intercity passenger rail and the 
airport, so that your friend who gets off the plane in Orlando 
doesn't have to get in a taxicab. They can get in a train and 
go to Jacksonville or wherever they want. The air-rail linkage 
is embryonic in this country. It is starting construction, I 
think, in Harrisburg Airport. They have got groundbreaking last 
year in Providence. Newark Airport is the one example that is 
really good. So that is really important, because anything that 
makes it easy to transfer between intercity passenger rail and 
other modes brings you a little bit closer to the flexibility 
of the automobile. And the closer you come, with the price of 
the automobile going up, the more people you get.
    And the third thing, on-time performance has been 
mentioned. Under current law the Surface Transportation Board 
has no authority to enforce the priority for dispatching of 
passenger trains over freight trains. It can only be enforced 
if the Attorney General of the U.S. brings a case. And that has 
only happened once in the history.
    There is, in the underside of this bill, there is in 
interesting language that would give the Surf Board some 
authority with regard to on-time performance. And I hope you 
will look at that and certainly address that issue when you 
write a bill for this side.
    Ms. Parcells. I would just like to say that in order--each 
year, as I mentioned in my testimony, Amtrak gets just enough 
money to get by, just enough money to go do some capital 
investments, but certainly not to create this vision that we 
all have and would like to see of a greatly improved passenger 
rail system.
    In the 1950s, when Eisenhower and the Congress came up with 
the interstate highway system, we also set up a highway trust 
fund that gave a stable source of funding. And we are not going 
to find adequate funding just through the annual appropriations 
process to get where we want to be. And so I think there needs 
to be creative thinking, as already has been going on, to 
either come up with some form of bonding authority or maybe 
carbon tax; maybe try to capture for the public benefit a 26 
percent increase that we are seeing in the gasoline price, 
which right now goes to the oil industry. There is no benefit 
captured for the public benefit. But we are going to need some 
new source of revenue that will really allow us to get this. 
And I think 50 years from now our children and grandchildren 
will thank us. Thank you for that leadership and vision.
    Mr. Blow. Madam Chairman, I would like to make one remark 
about a new way of doing business, carrying on from what Ross 
and Harriet have mentioned. The State of Texas, I think, is 
taking as broad a view of intercity passenger rail as any State 
that I am aware of in the country. Even though they are not 
represented in our Meglev Coalition, I will just say in the 
last several years they formed legislative partnerships and 
they have been reaching out to the private sector to look 
ahead.
    You may be very well aware what Texas is doing. But just 
recently, about a month ago, they had what they called a high-
speed rail design charrette, which is a fancy word for a 
meeting. It was sponsored by Continental Airlines, physically, 
in their building. And Continental and American Airlines are 
both looking into the addition of high-speed ground 
transportation as an adjunct to their air service. Now, whether 
they are doing that to eventually kill it or who knows what, 
but I am saying the State of Texas is going in with an open 
state of mind, so to speak. And they are now inviting the 
private sector to come and join with them, both rail, magnetic 
levitation, whatever. They are looking for technology partners 
to form what you would call maybe an interest group to come and 
pave the way for Texas to go into the 21st century. I think 
they are doing it the right way.
    Ms. Brown of Florida. And they are expanding--I have had 
several meetings with them--with various public-private 
partnerships in Texas that are interested in doing a high-speed 
train. And by the way, Florida, it was an initiative on the 
ballot that passed. And in fact we had very innovative 
Governors in the past that had laid the groundwork for a high-
speed rail in Florida. And then the Governor put it back on the 
ballot and killed it. But hopefully now Florida can move 
forward with more progressive leadership.
    Would you like to respond.
    Mr. Peppard. I would. You mentioned climate change, and we 
are glad that you did. I am glad to hear that the Committee is 
thinking about climate change in passenger rail because they 
are very integral.
    Ms. Brown of Florida. I am not sure the Committee is 
thinking about it, but I am thinking about it.
    Mr. Peppard. The Chair and some of her colleagues. But I 
think that you have touched on an important point when you said 
that we need to get people out of their cars. And I 
respectfully disagree we need to get them out. We actually need 
to let them out of their cars. People don't want to spend hours 
in traffic when they could be getting work done or spending 
time with their families or enjoying themselves. But we need to 
make it convenient for them to travel by easier, lower-carbon 
methods of transportation. And passenger rail offers that.
    Ways that we can encourage this is by developing stations 
in downtown areas with connections to both airports and local 
transit, making it so that stations are not on the edges of 
town and inaccessible to the majority of the population. And 
they can actually search for centers with growth and 
development.
    I reiterate the need for a thorough match and tax credits 
to invest in infrastructure as well, because this is going to 
be a partnership level between the States and the Federal 
Government. I think a good goal for that would be to have 10 to 
15 percent of intercity trips of 50 miles or more be a 
passenger rail in the next 25 years.
    Ms. Brown of Florida. I want to add something to yours. In 
what frequency do trains operate in the Chicago-Milwaukee 
corridor? What time savings does one get from riding the full 
length of the route from Milwaukee to Chicago as opposed to 
driving during rush hour?
    Mr. Brubaker. There are currently eight trains per day 
between Chicago and Milwaukee. There is a great deal of 
interest in expanding that. The State of Wisconsin is working 
with the private railroad right now to negotiate over increased 
capacity. I would also add, on that corridor there is a 
railroad station at the airport in Milwaukee, so another 
example of where that intermodalism is working. It doesn't beat 
the automobile by much during nonrush hour, but it is 
dependable. That train has one of the best on-time performance 
records anywhere in the Amtrak system, well over 90 percent. So 
when you get on that train in downtown Chicago you know exactly 
what time you will get to Milwaukee, and that is worth its 
weight in gold.
    I wanted to answer a little more of the question about what 
does success look like in this.I agree with all the 
recommendations of my colleagues up here. What those 
investments get you, though, is about a tenfold increase in 
ridership on these successful corridors. Chicago to St. Louis, 
for example, the studies have shown if you can get it up to 110 
miles an hour so it is competitive with cars, we are getting a 
tenfold ridership increase. Midwest-wide, we are talking 
roughly 10 million people a year using trains.
    Let me give a brief anecdote. The city of Springfield, 
Illinois just learned a couple weeks ago that it was going to 
be losing its commuter air service. And, dramatically, nobody 
cared. There was basically a giant shoulder shrug in reaction 
to this news. A few years ago that would have been unheard of. 
But we now have enough trains running from Chicago to 
Springfield corridor that the local chamber of commerce 
director was quoted as saying, well, you know, air really is an 
important piece of our transportation system; we are not going 
to miss it. That is part of the vision of what we can achieve 
with rail.
    Ms. Brown of Florida. Mr. Shuster.
    Mr. Shuster. Thank you. Just in response to a couple of 
comments that were made here. Mr. Capon, I think you are 
accurate, and if we can grow it from three intercities 1 
percent--mass transit in general is about 4 or 5 percent--if we 
can grow that double, I think that is realistic. But I think 
the powerful draw to the automobile is something that is unique 
to Americans, and that is freedom. And nothing, I think, 
symbolizes it more to Americans than their automobile. Because 
I can walk out of here today, get in my car and drive wherever 
I want to go, albeit sit in some traffic now and then. And the 
Europeans haven't experienced freedom as we have. They have had 
limited resources, they have had limited freedom throughout 
their histories. And so it is a whole different experience.
    And I just don't think we are ever going to get away from 
the mass appeal to an automobile, for Americans to have an 
automobile. Getting gas up to $7 a gallon, that is going to 
cost Americans there. But I believe in the marketplace that as 
it approaches $7 a gallon, somebody will figure out how to pour 
this in their tank and we will have some other source. I think 
that is eventually going to happen.
    And if we rely on the gas tax for the next 50 years, our 
grandchildren won't be thanking us, they'll be cursing us 
because we will be using water or some other source, and oil, 
so there will be no funding for it. So I think we have got to 
look at all different kinds of options and figure out how to 
fund the different modes of transportation.
    A question to Ms. Parcells and Mr. Capon: How do you feel 
about the private sector taking over or bidding on, like was 
the situation in California, the Metrolink. They bid it out to 
a private company that has, not intercity, but its commuter 
service. What are your thoughts on private companies taking 
parts of Amtrak that Amtrak doesn't want or can't operate 
efficiently?
    Mr. Capon. I think that if the Metrolink riders were 
getting good service, it is a reasonable decision for them to 
make. My understanding is that when Mr. Gunn was heading up 
Amtrak, let's say having those commuter rail contracts was not 
his top priority, so I don't know to what extent Amtrak's loss 
of that business reflected that. There was also a lot of, I 
think, bad blood at the lower level between Metrolink 
management and Amtrak. So I don't know.
    But from the point of view of the user, if, as you heard 
this morning, the service is running well, that seems like a 
reasonable outcome. You also heard them anxious to keep Amtrak 
in the ballpark as bidding on their contracts. And I know that 
MBTA was not amused when they learned that Amtrak was not going 
to bid on their contract up in Boston before that changed.
    Mr. Shuster. Ms. Parcells.
    Ms. Parcells. Well, I think Amtrak is already doing some 
partnerships with the private sector, certainly with their food 
service; they have contracted that out to actually a company 
that was part of our association for a number of years. You 
will see, I think, in the future more efforts to work with the 
private sector. And I think to the extent that that brings new 
efficiencies and better service, that is probably a good 
direction that we are going to see things moving.
    Mr. Shuster. So in principle, but there is no problem with 
a private sector----
    Ms. Parcells. Being involved.
    Mr. Shuster. Being involved, right.
    Mr. Blow, when you said there is one Maglev Coalition that 
wasn't--or proposal wasn't in there, and that is the 
Pittsburgh. Why is that?
    Mr. Blow. That is hard to answer that question, 
Congressman. It is one of the most visible projects we know, 
one of the most long lasting, one of the most solid Maglev 
proposals that has been around. I have been following that one 
for a long time. We requested that they join our coalition 
because we think we can help them.
    Frankly, you would have to ask Dr. Gurney and his people. 
We think it is a superb project and it deserves a broader 
audience, and it would have gotten a broader audience if they 
were in our coalition.
    Mr. Shuster. When I talked to them that seemed to be-- or 
at least they claim. From what I can tell, they seem to be 
moving this further along in a lot of their studies and design 
and things like that. Is that accurate, as far as you know?
    Mr. Blow. I can give you an opinion. My opinion is I don't 
think they are as far along as they say they are, but that is 
just an opinion. It takes a lot of work to get to the point 
where you are ready to put something on the ground, and they 
are not there yet.
    Mr. Shuster. That is what we get a lot in this town, 
opinions. You know what they say about opinions.
    Mr. Blow. Yes, sir, I do.
    Mr. Shuster. Mr. Brubaker, one question, and my final 
question, Madam Chair, the question on rolling stock. We had a 
company contact us that said there is a lot of rolling stock 
out there that needs rehab that can be put back on and run up 
to speeds of up to 110 miles an hour. And your statement said 
that it is not out there. It has got to be redesigned.
    Mr. Brubaker. If we are talking about new equipment with 
modern amenities, you can't buy off the shelf. And so we do 
need a Federal partnership. There really is some development 
involved. It is also true that there is older equipment out 
there that can be rehabbed. I know there is one company in 
Illinois, for example, that is interested in pursuing contracts 
of that sort. But there is a real difference between buying a 
used car and buying a new one, and the same is true with 
rolling stock.
    Mr. Shuster. Well, as somebody who used to sell new and 
used cars, I can make a case against--I can make a case for 
buying a used car. Thank you.
    Ms. Brown of Florida. I want to thank the witnesses for 
their testimony and the Members for their questions. Again, the 
Members of this Subcommittee may have additional questions for 
the witnesses and you may respond in writing. The hearing 
record will be held open for 14 days for Members wishing to 
make additional statements or ask further questions.
    But before I close this for further business my last 
question, giving you all 1 minute, how can government and 
private enterprise come together to create and support new 
passenger rail investment? And that will be the closing.
    Starting with you, Mr. Capon.
    Mr. Capon. Thank you. By the way, I wanted to clarify, Mr. 
Shuster, my comments about contracting out were specific to 
commuter rail and many other ancillary services such as the 
previous witnesses referred to. I have a sheet which I would be 
happy to give to you that outlines why Amtrak probably, as long 
as the game is played--we know it will be the intercity 
provider, and actually is put together by the managing director 
in Capital Corridor in California, who is on my board, Gene 
Skoropowski.
    To answer your question, I think one of the most important 
elements is everyone has got to be realistic about what the 
private sector is willing to do or not do. If we are talking 
about megaprojects, a lot of investors are very painfully aware 
that the initial investors in the Channel Tunnel lost their 
shirt. And so there has got to be a thorough realism about, as 
Mr. Quinn used to say, you get what you pay for.
    And the Federal Government is going to have to play a 
leadership role if we are going to change the Federal 
transportation policy and outcome. And there is just no way 
around the need for changing the priorities with which we spend 
money.
    Ms. Brown of Florida. One last thing. You mentioned Mr. 
Gunn a couple of times, and I think it was wonderful, but he 
hasn't been over Amtrak for about 2 years.
    Mr. Capon. That's right, I think, yeah.
    Ms. Brown of Florida. In about 2 years. And so that may be 
one of the problems that we have, Amtrak. Not talking about the 
present one, but him and the board as we move forward. I am 
looking forward to additional dialogue, because part of the 
problem has been, quite frankly, the administration.
    Ms. Parcells. I think the Federal Government needs to take 
a leadership role in terms of helping us get to this improved 
passenger rail system that we want. I see opportunities that 
the private sector would be interested in working with the 
Federal Government. And States are already putting money in, 
but they have said, as the prior panels did, they can't do it 
alone; they need a Federal partner. And, frankly, I think the 
Federal partner needs to be the lead partner, just as it is for 
the highway program, the transit program. But their dollars can 
leverage State dollars, private dollars. And I really hope that 
we get moving forward to bring this new vision into reality.
    Mr. Blow. I would certainly agree with Ross and with 
Harriet that the Federal Government needs to provide more of a 
leadership role. I know the State of California is going 
through some real pains now to try to implement their statewide 
high-speed rail system. That is a very big vision, that is a 
very big price tag.
    But I also remember looking at Tampa, Orlando, Miami, 
several years ago in Florida. At the time, my company at that 
time was Transrapid, the Maglev system that had been a longtime 
presence in the State of Florida. We decided not to bid on that 
project because there was too much reliance on the private 
sector in the beginning part to put up money and to make sure 
the State didn't have to spend any money. That is not really 
the way I think that the Federal Government should and the 
State government should work. The private sector can't lead the 
government into an intercity national program. It is not 
possible.
    Mr. Peppard. In closing, I would just like to say that, 
again, I appreciate the Chairman's focus on the connection 
between energy and climate and transportation. The three issues 
are interlinked. And to the extent that this Subcommittee and 
the Committee of the whole Transportation Committee can 
continue to make those connections and write policy that make 
those connections. Friends of the Earth certainly urges you to 
do so, and I appreciate your efforts so far.
    To answer your question about the connection between the 
public and private sectors with respect to passenger rail 
development, there has been a lot of money that has been made 
in building roads and highways in this country. And that is 
because there has been a significant Federal investment in 
developing that kind of a system. Luckily a pound of concrete 
costs just as much when you put it in a road or in a railbed. 
And a lot of the services that would go into building, 
developing and maintaining a rail system that is truly national 
in extent and that truly can provide people the rail options 
that they would need to consider a viable travel option, would 
create a lot of revenue for the private sector and a lot of 
public benefits at the same time. And I think the opportunities 
for partnership are ripe, and I think to the extent the 
Committee can move forward as quickly as possible with creating 
a policy, that would encourage that. Thank you.
    Mr. Brubaker. I think we need, as has been said, we need 
money. We need leadership, we also need clarity; clarity from 
the Federal Government in terms of what the rules of the road 
are going to be.
    As I said, the Illinois partnership, frankly, would have 
happened sooner had it not been for a lack of clarity on the 
future of Amtrak. We also need clarity in terms of what the 
private sector can bring. When a municipality privatizes 
garbage collection, that doesn't somehow make garbage worth 
more. It is still garbage. All we have done is capture the 
efficiencies of the private sector; and it is harder then to 
deliver a public service, for public dollars are going to cost.
    That is what the private sector can do in rail. It can't 
build the system for us and somehow turn a profit. We still 
need Federal leadership. Thank you.
    [Whereupon, at 1:50 p.m., the Subcommittee was adjourned.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
